                                    co$mrpryohAL &
                                    COMMUNITY
                                    SERVICEr,+,r,.



                                          May 19,2005

Ms. Shawn R. Lecker-Pomaville
Executive Director
Nevada Commission for National and Community Service
90 North Maine Street #204
Fallon, NV 89406-2956

Dear Ms. Lecker-Pomaville:

       Enclosed is the final report on our audit of grants awarded to the Nevada Commission for
National and Community Service (Commission). The Office of Inspector General retained
Cotton & Company LLP to perform an incurred-cost audit of the Commission. Under the
Corporation's audit resolution policy, final management decisions made on the recommendations
contained in this report are due by November 19,2005.

        If you have any questions related to the audit resolution process, please contact Andrew
Kleine, Acting Chief Financial Officer, at (202) 606-6692. If you have any questions pertaining to
this report, please contact Stuart Axenfeld, Audit Manager, at (202) 606-5000, extension 385.

Sincerely,



Carol Bates
Acting Inspector General


Enclosure




                        1201 New York Avenue. NW, Suite 830*  Washington, DC 20525
                           202-606-5000  *Hotline 800-452-8210 + www cncsig gov
                                                                                            U   S ACorpsS
                                                                                            Freedom
                            Senior Corps * AmeriCorps * Learn and Serve America             T h i P r ~ \ t d e n rl C.111   t o \er\cce
                                     h$rf;rJkAL          &
                                     COMMUNITY
                                     SERVICE=



                                          May 19,2005



TO:            Rosie Mauk
               Director, AmeriCorps

               Peg Rosenberry
               Director, Grants Management

FROM:          Carol Bates
               Acting Inspector General

SUBJECT:       Office of Inspector General Audit Report 05- 10, Audit of Corporationfor National
               and Community Service Grants Awarded to the Nevada Commission for National
               and Community Service

Attached is the final report on our incurred-cost audit of grants awarded by the Corporation to the
Nevada Commission for National and Community Service (Commission). Under the Corporation's
audit resolution policy, final management decisions on the recommendations in this report are due by
November 19,2005.

If you have any questions pertaining to this report, please contact me at extension 248.


cc:    Andrew Kleine, Acting Chief Financial Officer




                                                              *                                     s
                         1201 New York Avenue, NW, S u ~ t e830
                            202-606-5000  *
                                                                 Wash~ngton,DC 20525
                                           H o t h e 800-452-8210 + wwwcncslg gov
                                                                                              USA-
                                                                                              Freedom Corps
                             Senlor Corps t AmerlCorps   * Learn and Serve Amer~ca             The Priwlrnt   Call   10   5iniu
                                Office of Inspector General
                               Corporation for National and
                                        Community Service




    AUDITOF CORPORATION FOR NATIONAL
      AND COMMUNITY  SERVICE
                           GRANTS
    AWARDED  TO THE NEVADACOMMISSION
    FOR NATIONAL AND COMMUNITY
                             SERVICE

            OIG REPORT
                     NUMBER
                          05-10



                                                Cornoration for              a


                                                NATIONAL&
                                                COMMUNITY
                                                SERVICE-




                        Prepared by:

                COTTON & COMPANY LLP
             333 North Fairfax Street, Suite 401
                 Alexandria, Virginia 22314




This report was issued to Corporation management on May 19,2005. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report's findings and recommendations no later
than November 19, 2005, and complete its corrective actions by May 19, 2006.
Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                                  Office of Inspector General
                        Corporation for National and Community Service
                                      Audit Report 05- 10

  Audit of Corporation for National and Community Service Grants Awarded to the Nevada
                     Commission for National and Community Service
OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), retained Cotton & Company LLP (Cotton) to perform an incurred-cost audit of
grants awarded to the Nevada Commission for National and Community Service (Commission).

For the grants audited, the Commission claimed costs of $3,336,952 of which the auditors
questioned $78,534 as unallowable costs and $56,619 of education awards. Overall, the auditors
questioned approximately 2.4 percent of claimed costs. Costs questioned for allowability
represent amounts for which documentation shows that recorded costs were expended in
violation of regulations or specific grant award conditions, or costs that require an interpretation
of allowability by the Corporation. The auditors also noted instances of noncompliance with
provisions of Federal laws, regulations and grant award provisions. In addition, the auditors
noted two internal control findings that are considered material weaknesses.

The Commission generally agreed with the audit report's conclusions and it has addressed many
of the identified weaknesses. However, it disagreed with the auditors' classification of two
internal control findings as material weaknesses, citing its relatively small amount of questioned
costs. These comments and the Commission's corrective actions will be reviewed by the
Corporation as part of the audit resolution process.

In accordance with our statutory responsibilities, we reviewed Cotton's report and related audit
documentation, interviewed their representatives, and performed other procedures as we deemed
appropriate in the circumstances to provide reasonable assurance that the audit was performed in
accordance with generally accepted government auditing standards. Our review was not
intended to enable us to express, and we do not express, opinions on the Commission's
Consolidated Schedule of Award Costs, internal controls or conclusions on compliance with
laws and regulations. Cotton is responsible for the attached reports dated December 17,2004,
and the conclusions expressed therein. However, our review disclosed no instances where
Cotton did not comply, in all material respects, with generally accepted government auditing
standards.

The Office of Inspector General provided officials of the Nevada Commission for National and
Community Service and the Corporation with a draft of this report for their review and comment.
Their responses are included as Appendices A and B, respectively.
                           OFFICE OF INSPECTORGENERAL
                              FOR NATIONAL
                    CORPORATION           AND COMMUNITY
                                                      SERVICE
                                 AUDITOF GRANTS
                     INCURRED-COST             AWARDEDTO THE
                  NEVADACOMMISSION
                                 FOR NATIONALAND COMMUNITYSERVICE

                                                      Contents

Section                                                                                                              Page

Executive Summary ................................................................................................

Independent Auditors' Report ....................................................................................

Exhibit A: Consolidated Schedule of Claimed and Questioned Costs ........................................

Schedule A: Schedule of Claimed and Questioned Costs for Award No . OlAPSNV029 ...............

Schedule B: Schedule of Claimed and Questioned Costs for Award No . 98ASCNV029 ................
       Schedule B-l : Schedule of Claimed and Questioned Costs ........................................

Schedule C: Schedule of Claimed and Questioned Costs for Award No.OlASCNV029 .................
       Schedule C-1 : Schedule of Claimed and Questioned Costs .......................................
       Schedule C-2: Schedule of Claimed and Questioned Costs .......................................

Schedule D: Schedule of Claimed and Questioned Costs for Award No . 00ASFNV029 ...............
       Schedule D-1: Schedule of Claimed and Questioned Costs .......................................
       Schedule D-2: Schedule of Claimed and Questioned Costs .......................................

Summary of Significant Accounting Policies .................................................................

Independent Auditors' Report on Compliance and Internal Control .......................................

Attachment

A: Status of Findings from the Pre-Audit Survey

Appendices

A: Commission's Response to Draft Audit Report
B: Corporation's Response to Draft Audit Report
                                        EXECUTIVE SUMMARY

The Office of Inspector General (OIG) contracted with Cotton & Company LLP to perform an incurred-
cost audit of costs claimed by the Nevada Commission for National and Community Service
(Commission) for Program Years (PYs) 2000-2001,2001-2002, and 2002-2003. Our audit included costs
claimed under the following grants from inception to the end of the grant, or through December 3 1, 2003,
if the grant was open as of that date. Our audit covered financial transactions, compliance, and internal
control testing of the following awards funded by the Corporation for National and Community Service
(Corporation):

 Program                                   Award No.           Award Period            Audit Period
 Administrative                          01SCSNV033           0710 1101-06/30/04     0710 1101-06130103
 Program Development Assistance
    and Training (PDAT)                  02PDSNV033           0710 1102-06/30/05     0710 1102-06/30/03
 Disability                              00DSCNV033           0710 1100-06/30/03     0710 1100-06/30/03
 AmeriCorps Competitive                  98ASCNV029           0910 1100-08131/03     0910 1100-09/30/01
 AmeriCorps Competitive                  0 1ASCNV029          0610 1101-05131/04     06/01/01-1213 1/03
 AmeriCorps Formula                      00ASFNV029           0910 1100-08131/03     0910 1100-08131/03
 AmeriCorps Promise Fellows              0 1APSNV029          11101101-10131104      11101101-12131103

Audit objectives were to determine if

            The Commission's financial reports presented financial award results fairly.

            Internal controls were adequate to safeguard federal funds.

            The Commission and its subrecipients had adequate procedures and controls to ensure
            compliance with Federal laws, applicable regulations, and award conditions.

            The Commission documented award costs reported to the Corporation, and these costs were
            allowable in accordance with award terms and conditions.

            The Commission established adequate financial and program management oversight of its
            subrecipients.


BACKGROUND

State commissions may receive Corporation funding under specific grants for such programs as
AmeriCorps, Education Awards and Promise Fellows. The primary AmeriCorps grant is an annual award
passed through the State commissions to eligible subrecipients (State and local government and certain
nonprofit entities) that recruit and select volunteers who then receive living allowances and earn
education awards. The education awards are administered by the Corporation through a database of all
members that is updated by each Commission and reported to the Corporation's National Service Trust.
Members then submit requests to the Trust to redeem their awards via payment to higher education
institutions or lenders of their outstanding education loans.

The Commission initially operated out of the Nevada Department of Employment, Training, and
Rehabilitation (DETR) from its inc:eption in 1994 through May 15, 1998. By Executive Order of the
Governor of Nevada in 1998, the Commission became an independent non-profit organization and began
to administer Corporation programs authorized by the National and Community Service Trust Act of
1993. The Commission does not administer any direct AmeriCorps programs. Therefore, the majority of
the funding received fiom the Corporation flows through the Commission to its subrecipients. The
Commission does, however, directly administer an Administrative Grant, a Program Development
Assistance and Training (PDAT) grant, and a Disability Grant.

The following seven subrecipients were included in our audit:

         Full Name                                                   Abbreviated Name
         Boys & Girls Clubs of Las Vegas                             B&G Clubs
         Family Resource Centers of North Eastern Nevada             Resource Centers
         Great Basin Institute, University of Nevada                 GBI
         Great Basin Primary Care Association                        GBPC
         The Best Coalition                                          Coalition
         The Parasol Foundation                                      Parasol
         United States Veterans Initiative                           U.S. Vets


SUMMARY OF RESULTS

Based on questioned costs detailed below our audit report expresses a qualified opinion on the
Consolidated Schedule of Claimed and Questioned Costs. Compliance, internal control findings, and cost
findings are summarized as follows:


Compliance and Internal Control Findings

We have issued a report titled Inde!pendent Auditors' Report on Compliance and Internal Control that is
applicable to the audit of the Consolidated Schedule of Claimed and Questioned Costs. In that report, we
identified findings required to be reported under generally accepted government auditing standards.
These findings are as follows:

        The Commission did not have adequate financial monitoring procedures or other procedures to
        ensure that subrecipients had adequate financial management and reporting systems.

        The Commission claimed mallowable costs and unsupported costs.

        The Commission did not have adequate procedures to ensure member eligibility.

        The Commission did not have adequate procedures to ensure that members received living
        allowances in accordance with AmeriCorps Provisions.

        The Commission did not have procedures to ensure that subrecipients adequately documented
        member activities.

        The Commission did not have procedures to ensure that subrecipients complied with all grant
        compliance provisions.

        The Commission did not a'dequately document its consideration of relevant past performance by
        subrecipients in its subgrarit award process.
Cost Findings

The Commission claimed $3,336,952 for Program Years 2000-2001,2001-2002, and 2002- 2003. We
audited $2,653,101 of claimed costs (see Exhibit A). Of this amount, we questioned claimed costs of
$78,534. Costs questioned are those for which documentation shows that recorded costs were incurred in
violation of laws, regulations, or specific award conditions; costs that require interpretation of
allowability by the Corporation; or costs that require additional documentation to substantiate that the
cost was incurred and is allowable.

Grant participants who successfully complete terms of service under AmeriCorps grants are eligible for
education awards from the National Service Trust. These award amounts are not funded by Corporation
grants and thus are not included in claimed costs. As part of our audit, however, we determined the effect
of audit findings on education award eligibility. Using the same criteria described above, we questioned
education awards totaling $56,619.

Net questioned costs and education award costs are summarized below. Although some costs and
education awards had more than one reason to be questioned, we question these amounts only once.
Also, other questioned costs identified in the Independent Auditors' Report on Internal Control and
Compliance are not included here because these amounts related to claimed match, or program costs that
exceeded claimed costs, and they did not result in costs reimbursed by the Corporation.

                                                                                                       Education
 Questioned for                                                               Costs                     Awards
 Unsumorted Cost Allocations                                                 $66.984
 Claimed Under Duplicate Progratn                                             46,906
 Background Check Not Conducted                                               26,833                    $10,700
 Costs Allocable to Other Awards                                               3,783
 Pre-Award Costs Claimed                                                       5,030
 Excess FICA
 -- - -   - - -   - - - - -                                                    5.593
                                                                               - --    7-


 Unallowable Unemployment Insurance                                              782
 Unallowable Health Insurance                                                    924
 Costs Misclassified on FSR                                                    1,729
 Unsupported Costs                                                             6,28 1
 Out-of-Period Living Allowance                                                1,458
 Excess Living Allowance  -                                                                 124
 Living Allowance Over Ceiling                                                 30,928
 Unallowable Travel Costs                                                         150
 Overclaimed Administrative Costs                                               5,578
 Post-FSR Adjustment                                                            2,527
 Missing Proof of CitizenshipILegal Residency                                 ---.up              "-      8,7 12--
                      -
 Comvelling Personal Circumstances Not Documented                                                         6.264 -
 Minimum Service Hours Not Supported                                                                     23,625
 Member Released for Cause                                                                                2.593
                                                                                                           ,~ -



 Vacation, Sick Leave, and Holiday Hours Recorded as Service Hours                                        4,725
 Costs Incurred in Excess of Costs Claimed                                  (127,076)
 Net Questioned                                                               $78.534                   $56.619
Details of questioned costs and education awards are included in the Independent Auditors' Report. Cost
and education exceptions by award are detailed in Schedules A through D and are summarized below.
Total questioned costs below are less than the questioned costs in thc table above because some
subrecipients incurred costs that exceeded claimed costs.


                                       Costs         Education Awards
                    Grant No.        Questioned         Questioned          Schedule
                  01 SCSNVO33             -                  -                  -

                  02PDSNV033              -                  -                  -

                  00DSCNV033              -                  -                  -

                  0 lAPSNV029             -              $8,7 11                A
                  98ASCNV029              -               7,3 18                B
                  0 1ASCNV029          $9,711            12,352                 C
                  00ASFNV029           68,823            28,238                 D
                  Total



Exit Conference

An exit conference was held with Commission and Corporation representatives on March 3,2005.
In addition, we provided a draft copy of this report to the Commission and the Corporation for comment
on March 25, 2005. Their responses, dated April 28,2005, and Aprd 27,2005, respectively, are included
as appendices A and B to this report. The Commission provided specific comments on the report which
are included in the Independent Auditors' Report on Compliance and Internal Control. The Corporation
stated that it has reviewed the findings in detail and will respond to all findings and recommendations
when the final audit report is issued.



Follow-Up on Prior Audit Findings

The Office of Inspector General performed a Pre-Audit Survey o f the Commission in Fiscal Year
2000 and issued Office o f Inspector General Report No. 01-17, dated October 27,2000. Our
audit followed up on the status of findings and recommendations made in that report (see
Attachment A).
                         COTTON~ C C ~ M P A LLP
                                             NY

December 17.2004


Office of Inspector General
Corporation for National and Community Service


                                     INDEPENDENT AUDITORS' REPORT


We have audited costs claimed by lhe Nevada Commission for National and Community Service for
Program Years (PYs) 2000-200 1,2:001-2002, and 2002-2003 for the awards listed below. These costs, as
presented in the Consolidated Schedule of Claimed and Questioned Costs and grant-specific Schedules of
Claimed and Questioned Costs (Schedules A through D), are the responsibility of Commission
management. Our responsibility is to express an opinion on the consolidated and grant-specific schedules
based on our audit.

Program                                           Award No.                 Award Period               Audit Period
Administrative                                   01 SCSNV033
Program Development Assistance
    and Training (PDAT)                         02PDSNV033
Disability                                      00DSCNV033
AmeriCorps Competitive                          98ASCNV029
AmeriCorps Competitive                          0 1ASCNV029
AmeriCorps Formula                              00ASFNV029
AmeriComs Promise Fellows*                      0 1APSNV029

* This grant is a fixed-amount award for which the Commiss~onis not required to submit Financial Status Reports (FSRs). Our
  audit scope was limited to testing compliance with member eligibility and staffing requirements.

Except as described below, we conducted our audit in accordance with audit standards generally accepted
in the United States of America and generally accepted government auditing standards. These standards
require that we plan and perform the audit to obtain reasonable assurance about whether the financial
schedules are free of material misstatement. An audit includes examining, on a test basis, evidence
supporting amounts and disclosures in the financial schedules. An audit also includes assessing
accounting principles used and significant estimates made by management, as well as evaluating overall
financial schedule presentation. P'e believe that our audit provides a reasonable basis for our opinion on
costs claimed.

As noted above, our audit included examining transactions on a test basis. We initially identified certain
subrecipients of the Commission's AmeriCorps Formula and Competitive Grants and tested costs claimed
by those subrecipients. During our testing, we identified a significant number of compliance issues and
questioned costs. At the OIG's request, however, we did not expand testing to other subrecipients. Costs
claimed by those subrecipients are not included in audited costs as shown in the Consolidated Schedule of
Claimed and Questioned Costs.

The Consolidated Schedule of Claimed and Questioned Costs and grant-specific Schedules of Claimed
and Questioned Costs are intended. to present allowable costs incurred under the awards in accordance
                                                    5
with Office of Management and Budget (OMB) Circular A-122, Cost Principles for Non-Projit
Organizations, other applicable OMB circulars, and award terms and conditions. Therefore, these are not
intended to be complete presentations of the Commission's revenues and expenses. These schedules also
identify certain questioned education awards. These awards are not funded by Corporation grants and
thus are not included in claimed costs. As part of our audit, however, we determined the effect of all
member-eligibility issues on these awards.

In our opinion, except for questioned costs in the Consolidated Schedule of Claimed and Questioned
Costs, and the effect of such additional questioned costs, if any, that might have been identified if we had
tested all subrecipient costs, the financial schedules referred to above present fairly, in all material
respects, costs claimed by the Commission for Program Years 2000-2001, 2001-2002, and 2002-2003, in
conformity with applicable OMB circulars, and award terms and conditions.

In accordance with generally accepted government auditing standards, we have also issued a report dated,
December 17, 2004, on our consideration of the Commission's internal controls and compliance with
laws and regulations. This report is an integral part of an audit performed in accordance with generally
accepted government auditing standards and should be read in conjunction with this report in considering
audit results.



COTTON& COMPANY
              LLP




Sam A. Hadley, CPA, CGFM
Partner
                                                                                                  EXHIBIT A


                   NEVADA
                        COMMISSIONFOR NATIONALAND COMMUNITY
                                                          SERVICE
                   CONSOLIDATED
                             SCHEDULE OF CLAIMED
                                               ANDQUESTIONEDCOSTS
                   CORPORATION
                            FOR NATIONALAND COMMUNITYSERVICE
                                                           AWARDS


                                                                             Questioned    Education
                                  Approved       Claimed        Audited       Federal       Award
Award No.     Program              Budget         Costs          Costs         Costs       Questioned     Schedule
0 1SCSNV033   Administrative       $320,906       $305,017      $305,017
02PDSNV033    PDAT                   99,000         99,000        99,000
00DSCNV033    Disability             82,000         54,792        54,792
0 1APSNV029   Promise Fellows        82,800         48,572        48,572                        $8,711       A
98ASCNV029    AmeriCorps
              Com~etitive            655.223       562.752       408.742                         7.3 18      B
0 1ASCNV029   AmeriCorps
              Competitive          1,555,972     1,465,191      1,123,641         $9,711        12,352       C
00ASFNV029    AmeriCorps
              Formula                949,200       801,628        613,337         68,823        28,238       D
              Total               $3.745.101    $3?336.952     $2.653.101        $78!53$       $56.619

              Refer to the Independent Auditors' Report for scope limitations affecting this schedule.
                                                                                      SCHEDULE A


           NEVADACOMMISSION
                          FOR NATIONAL AND COMMUNITY SERVICE
              SCHEDULE
                     OF CLAIMEDAND QUESTIONEI)COSTSUNDER
           CORPORATION
                    FOR NATIONALAND COMMUNITY  SERVICEAWARDS
                        AWARD NO. 01APSNV029
                          PROMISE  FELLOWS
                  NOVEMBER1,2001, TO DECEMBER31,2003


            Promise Fellows                                   Amount          Notes
            Approved Budget (Federal Funds)                    $82,800
            Claimed Costs                                      $48,572          1
            Questioned Federal Costs                                $0          2
            Ouestioned Education Award                          $8.7 11         3


1.   This grant is a fixed-amount award for which the Commission is not required to submit Financial
     Status Reports (FSRs). The Corporation provided a fixed level of support based on the specified
     number of Fellows. Claimed costs shown above are amounts drawn down as of December 3 1,
     2003, as reported in the Commission's Federal Cash Transaction Report (FCTR). The grant
     provided funding of $82,800 based on six full-time Fellows ($13,800 per Fellow). The
     Commission had two subrecipients under this award, GBI and B&G Clubs. As of December 3 1,
     2003, the Commission had drawndown $48,572 of this award. However, the Commission is not
     entitled to the full awarded amount because it did not have the specified number of members
     complete the program. We obtained the AmeriCorps Member Roster for this award and
     determined that three Fellows completed their terms and two completed only partial terms.
     According to grant award terms, the Commission is entitled to $59,800, based on $13,800 for
     each of the three full-term member and a prorated amount for the two partial-term members.

2.   One of the Commission's subrecipients, GBI, did not maintain documentation to support
     eligibility for one Fellow. AmeriCorps Provisions, Section B (8), Member Eligibility,
     Recruitment, and Selection, require that a member be a U.S. citizen, U.S. national, or lawful
     permanent resident alien of the U.S. GBI obtained a Form 1-9, Employment Eligibility
     Verification, from this member. However, Section C of this form, which requests citizenship
     information, was not completed. The Fellow's $1 1,500 living allowance is unallowable.
     Because this grant was open as of the date of our fieldwork, we have not questioned these costs.
     We recommend that upon closing of the grant, the Corporation complete a reconciliation of final
     amounts drawn down to amounts earned for this award.

3.   We questioned education awards of $8,711 as follows:

     a.      B&G Clubs recorded 120 hours of vacation, sick, and holiday leave to satisfy a Fellow's
             service requirement. AmeriCorps Provisions, Section B (6), Terms of Sewice, requires
             that a member serve at least 1,700 hours to earn an education award. Excluding non-
             service hours, this Fellow did not meet the minimum 1,700-hour requirement. We
             therefore questioned the Fellow's education award of $4,725.
b.   GBI did not maintain documentation to support elig~bilityfor one Fellow. AmeriCorps
     Provisions, Section B (S), Member Eligibility, Recruitment, and Selection, requires that a
     member be a U.S. citizen, U.S. national, or lawful permanent resident alien of the U.S.
     GBI obtained a Form 1-9, Employment Eligibility Verification, from this Fellow.
     However, Section C of this form, which requests citizenship information, was not
     completed. We questioned the GBI Fellow's $3,986 education award.
                                                                  SCHEDULE B


        NEVADACOMMISSIONFOR NATIONAL  AND COMMUNITY SERVICE
           SCHEDULEOF CLAIMEDAND QUESTIONED COSTSUNDER
        CORPORATION
                  FOR NATIONALAND COMMUNITY  SERVICE AWARDS
                      AWARDNO. 98ASCNV029
                     AMERICORPS-COMPETITIVE
               SEPTEMBER1,2000, TO SEPTEMBER30,2001


                                                Questioned
             Approved    Claimed     Audited    Education
              Budget      Costs       Costs      Awards       Reference
B&G Clubs     $233,156    $154,010
GBI            258,266     257,366   $257,366
U S . Vets     163,801     151,376    151,376     $7,3 18    Schedule B-1
Total         $655.223   $562.752    $408.742     $7.3 18
                                                                                     SCHEDULE B-1


           NEVADACOMMISSIONFOR NATIONAL  AND COMMUNITY SERVICE
              SCHEDULEOF CLAIMEDAND QUESTIONEI)COSTSUNDER
           CORPORATION
                     FOR NATIONALAND COMMUNII'Y SERVICE AWARDS
                         AWARD NO. 98ASCNV029
                        AMERICORPS-COMPETITIVE
                  SEPTEMBER1,2000, TO SEPTEMBER30,2001
                               U.S. VETS


                                                              Amount           Notes
              Approved Budget (Federal Funds)                $163,801
              Claimed Costs                                  $151,376
              Questioned Federal Costs                             $0            1
              Questioned Education Awards                      $7,3 18           2


     U.S. Vets incurred program costs of $248,719 and claimed $151,376 for Corporation
     reimbursement. The difference between incurred and claimed costs is U.S. Vets' matching funds
     for the grant. AmeriCorps grant provisions establish statutory minimum matching percentages of
     15 percent for member support costs (Category A) and 33 percent for program operating costs
     (Categories B through F). US.Vets' matching exceeded the statutory minimum. We identified
     unallowable and unsupported costs, as described in Finding No. 2 to the Independent Auditors'
     Report on Compliance and Internal Controls. However, because U S . Vets incurred costs in
     excess of costs claimed, and also claimed a match percentage that exceeded the Corporation
     minimum requirements, there are no net questioned costs here.

2.   We questioned education awards of $7,3 18 as follows:

     a. U S . Vets released one member in Program Year 2000-2001 for violating member contract
        rules of conduct. However, the exit form indicated that the member had been released for
        compelling personal circumstances, allowing the member to earn a partial education award of
        $2,593. According to 45 CFR 5 2522.230 (b), Release for Cause, any release for other than a
        compelling personal circumstances is a release for cause, and a participant released for cause
        may not receive any portion of an education award. We therefore questioned the $2,593
        education award for this member.

     b. U S . Vets reported 1,701 hours to the Corporation for one member. However, time sheets for
        the member supported only 1,699 service hours. According to 45 CFR 5 2522.220 (a), Term
        of Sewice, participants must complete 1,700 hours of service to be eligible for an education
        award. We therefore questioned the $4,725 education award for this member.
                                                                              SCHEDULE C


             NEVADA
                  COMMISSIONFOR NATIONAL AND COMMUNITY  SERVICE
               SCHEDULE
                      OF CLAIMED  AND QUESTIONED COSTSUNDER
            CORPORATION
                     FOR NATIONAL  AND COMMUNITY  SERVICEAWARDS
                         AWARD  NO. 01ASCNV029
                        AMERICORPS-COMPETITIVE
                     JUNE1,2001, TO DECEMBER 31,2003


                                                                 Questioned
            Approved     Claimed      Audited      Questioned    Education
             Bidget       Costs        Costs         Costs        Awards         Reference
B&G Clubs    $397,707     $341,550
GBI           815,107      800,924     $800,924          $380                   Schedule C-1
U.S. Vets     343,158      322,717      322,717         9,33 1    $12.352       Schedule C-2
Total       $1.555.972   $1.465.191   $1.123.641       $9,711     $12.352
                                                                                        SCHEDULE C-1


               NEVADACOMMISSIONFOR NATIONAL AND COMMUNITY  SERVICE
                         OF CLAIMED
                  SCHEDULE           AND QUESTIONED COSTSUNDER
               CORPORATION
                        FOR NATIONAL  AND COMMUNITY  SERVICEAWARDS
                            AWARDNO. 01ASCNV029
                           AMERICORPS-COMPET~T~VE
                        JUNE1,2001, TO DECEMBER 31,2003
                                      GBI


                                                              Amount       Reference
           Approved Budget (Federal Funds)                    $815,107
           Claimed Costs                                      $800,924
           Questioned Federal Costs                               $380       Note


Note. GBI claimed $27,418 of administrative expenses based upon the amount it budgeted rather than the
actual amount for this line item. AmeriCorps Provisions, Section 22 (C), Administrative Costs, state that
administrative costs cannot exceed 5 percent of total Corporation funds expended, or 5.26 percent of total
Corporation funds expended, excluding administrative costs. The Nevada Commission discovered the
excess claim during an internal audit, but only identified $340 of the $380 excess claim. GBI remitted
$340 to the Commission. We questioned the full $380, however, because the Commission included this
amount in claimed costs.
                                                                                   SCHEDULE C-2


           NEVADA
                COMMISSIONON NATIONAL  AND COMMUNITY SERVICE
             SCHEDULE
                    OF CLAIMED  AND QUESTIONED COSTSUNDER
          CORPORATION
                   FOR NATIONAL  AND COMMUNITY  SERVICE
                                                      AWARDS
                       AWARD  NO. 01ASCNV029
                      AMERICORPS-COMPETITIVE
                   JUNE1,2001, TO DECEMBER 31,2003
                               U.S. VETS


                                                        Amount          Notes
       Approved Budget (Federal Funds)                   $343,158
       Claimed Costs                                     $322,7 17
       Questioned Federal Costs                            $9,33 1        1
       Ouestioned Education Award                         $12.352         2

U.S. Vets incurred program costs of $522,906 and claimed $322,717 for Corporation reimbursement.
The difference between incurred and claimed costs is U.S. Vets' matching funds for the grant.
AmeriCorps grant provisions establish statutory minimum matching percentages of 15 percent for
member support costs (Category A) and 33 percent for program operating costs (Categories B
through F). U.S. Vets' claimed matching funds exceeded the statutory minimum. We identified
unallowable and unsupported Category A costs, as described in Finding No. 2 to the Independent
Auditors' Report on Compliance and Internal Control. However, because U.S. Vets incurred costs in
excess of costs claimed, and also claimed a match percentage that exceeded the Corporation
minimum requirements, there are no Category A costs questioned here. We questioned $9,33 1 of
Categories B-F costs as follows:

                                                           Categories B-F       Notes
           Total Program Costs Incurred                      $267,703
           Less: Unsupported Costs
                  Claimed Under Duplicate Program
                  Costs Allocable to Other Awards
                  Unallowable Travel Costs
                  Post-FSR Adjustment
           Total Allowable Program Costs
           Federal Funding Percentages
           Total Allowable Federal Costs
                  Total Allowable Program Costs x
                     Federal Funding Percentage
           Costs Claimed
           Net Cost Exceptions

a. U.S. Vets claimed $5,259 of costs for which it could not provide adequate supporting
   documentation as follows:

            $4,250 for rent paid for the site facility from September 2002 to June 2003. U.S. Vets
            had an open issue with another Federal agency questioning whether rent paid for other
            facilities to this same landlord is a related-party transaction. While U.S. Vets believes
            that the landlord is not a related party, we requested either documentation from the
            agency that the issue had been resolved or documentation from U S . Vets showing that
            costs charged represent actual ownership costs of the landlord and would otherwise be
            allowable. Supporting documentation was not provided. OMB Circular A-1 22,
            Attachment B, Paragraph 43 (c), Rental costs of building and equipment, states that rental
            costs under less-than-arms-length leases are allowable only up to the amount that would
            be allowed had title to the property been vested in the organization.

            $379 for hotel costs for a National Coalition for Homeless Veterans (NCHV) conference
            in May 2003, that were supported by a check request for that amount. U S . Vets could
            not provide the hotel receipt.

            $250 for a Points of Light Conference (an award dinner to recognize Nevada volunteers).
            The only documentation provided was a monthly credit card statement with that amount
            handwritten on the bill.

            $380 for a telephone charge. U.S. Vets provided no documentation.

        OMB Circular A-122, Attachment A, Paragraph A.2., states that costs must be adequately
        documented to be allowable. We therefore questioned $5,259.

b. U.S. Vets claimed supervisors' labor costs of $46,906, but did not provide adequate supporting
    documentation, such as time sheets, that would identify the program that the employee was
    working on, as required by OMB Circular A-122, Attachment B, Paragraph 8 (m), Compensation
   for personal service, Support of salaries and wages. Additionally, labor costs for these
    employees were claimed under another Federal program. U.S. Vets noted that the amount
    claimed for these supervisors represented only the portion allocated to the cost-share requirement
    of the other Federal program, and therefore it had no duplicative cash recovery. Costs charged to
    a Federal program, whether directly reimbursed or identified as match or cost-share expenses,
    cannot be borne by another agency, in accordance with 45 CFR 8 2543.23, Cost Sharing or
    Matching. We therefore, questioned the $46,906 in labor costs.

c. U.S. Vets claimed the following unallocable costs:

            $199 for supplies that should have been allocated between the AmeriCorps program and
            a Department of Housing and Urban Development g-ant.

            $32 1 for the executive director's site visit to Houston, Texas. This visit was not within
            the scope of the AmeriCorps Nevada grant.

        These costs are unallowable in accordance with OMB Circular No. A-122, Attachment A,
        Paragraph A.4. We therefore questioned $520.


d. U.S. Vets paid its employees $150 over the maximum allowed by its travel policy:

            U.S. Vets paid an employee the full per-diem amount for the first and last day of travel.
            Its documented travel policy states, however, that employees must record the time of
            travel on the travel expense report, and that per-diem amounts for partial-day travel must
            be requested in one-third increments. The employee did not record departure or return
                times. We therefore questioned $72, which represents the difference between claimed
                costs and the minimum amount that would have been earned.

                U.S. Vets also paid amounts exceeding the maximum per-diem amount to an employee.
                Its documented travel policy states that lodging will be reimbursed up to the maximum
                allowance in the Federal Travel Regulations (FTR) unless prior approval is obtained
                from the executive director and justification is properly documented. U.S. Vets paid the
                employee $78 (3 nights x $26) above the maximum federal per diem without prior
                approval and justification. We therefore questioned $78.

   e. U S . Vets recorded adjustments to AmeriCorps expenses for Program Years 2001-2002 and 2002-
      2003 after filing FSRs. It did not file adjusted FSRs to reflect these adjustments, and claimed
      costs were overstated by $1,737 and $790, respectively, in these two program years. We
      therefore questioned $2,527.

   f.   Allowable federal costs are total allowable program costs for the cost category multiplied by cost-
        sharing percentages required by AmeriCorps regulations, unless the amount exceeds the approved
        budgeted amount for the cost category. Allowable federal costs by category cannot exceed the
        budgeted amount as the result of budgetary restrictions on member living allowances as well as
        administrative costs. This is in accordance with AmeriCorps Provisions, Section B (15), Budget
        and Programmatic Changes, as well as budgetary restrictions on administrative costs in
        accordance with OMB Circular A-1 10, Paragraph 25 Revision of budget and program plan.

2. We questioned education awards of $12,352 as follows:

   a. U.S. Vets allowed two members in Program Years 2001-2002 to earn partial education awards
      totaling $2,901 ($979 and $1,922), but did not document the compelling personal circumstances
      for leaving the program that are necessary to merit the award. Circumstances under which a
      member may leave the program early and earn an award are detailed in 45 CFR 5 2522.230 (b)
      Release for cause, which requires that circumstances must be documented. We therefore
      questioned $2,9O 1.

   b. U.S. Vets could not provide documentation supporting U.S. citizen or legal residency status for
      five members. According to 45 CFR § 2522.200, every AmeriCorps participant must be a U.S.
      citizen, national, or lawful permanent resident alien of the United States. We therefore
      questioned $4,726 in related education awards earned by those members.

   c. U S . Vets reported 1,702 hours to the Corporation for one member. However, time sheets for the
      member supported 1,600 service hours. According to 45 CFR 5 2522.220 (a) Term of Service,
      participants must complete 1,700 hours of service to be eligible for an education award. We
      therefore questioned the $4,725 education award for this member.
                                                                                           SCHEDULE D


               NEVADACOMMISSIONFOR NATIONAL  AND COMMUNITY SERVICE
                  SCHEDULEOF CLAIMEDAND QUESTIONED COSTSUNDER
               CORPORATION
                         FOR NATIONALAND COMMUNITY  SERVICE AWARDS
                             AWARD NO. 00ASFNV029
                              AMERICORPS-FORMULA
                      SEPTEMBER1,2000, TO SEPTEMBER30,2003


                                                                               Questioned
                      Approved        Claimed       Audited     Questioned     Education
                       Budget          Costs         Costs        Costs         Awards         Reference
Coalition              $144,000       $l29,l9 1
Resource Centers         74,400         59,100                        $68 1                       Note
GBPC                    198,400        153,096      $153,096        45,60 1      $4,725       Schedule D-1
GBI                     161,106        119,922       119,922
Parasol                 37 1,294       34O,319       340,3 19       22,541       23,5 13      Schedule D-2
Total                  $949.200


Note. Resource Centers claimed $3,600 of administrative expense based upon the amount it budgeted
rather than the allowable amount for this line item. AmeriCorps Provisions, Section C (22),
Administrative Costs, state that administrative costs cannot exceed 5 percent of total Corporation funds
expended, or 5.26 percent of total Corporation funds expended, excluding administrative costs. The
Commission discovered the excess claim during an internal audit, but only identified $645 of the $681
excess claim. Resource Centers remitted $645 to the Commission. However, we questioned the full
$681, because the Commission included this amount in claimed costs.
                                                                                       SCHEDULE D-1


              NEVADACOMMISSIONFOR NATIONAL  AND COMMUNITY SERVICE
                 SCHEDULEOF CLAIMEDAND QUESTIONED COSTSUNDER
                        FOR NATIONAL
              CORPORATION           AND COMMUNITY  SERVICE AWARDS
                            AWARDNO. 00ASFNV029
                             AMERICORPS-FORMULA
                     SEPTEMBER1,2000, TO SEPTEMBER30,2003
                                    GBPC

                                                               Amount              Notes
                  Approved Budget (Federal Funds)              $198,400
                  Claimed Costs                                $153,096
                  Questioned Federal Costs                      $45,601              1,2
                  Questioned Education Award                     $4,725               3

1. GBPC incurred $244,714 of member and program operating costs and claimed $143,206 for
   Corporation reimbursement (excluding $9,889 for administrative expenses). The difference between
   incurred and claimed costs is GBPC's matching for the grant. AmeriCorps grant provisions establish
   statutory minimum matching percentages of 15 percent for member support costs (Category A) and
   33 percent for program operating costs (Categories B through E). GBPC's matching exceeded the
   statutory minimum. We identified unallowable and unsupported costs as described in Finding No. 2
   to the Independent Auditors' Report on Compliance and Internal Control. However, because GBPC
   incurred costs in excess of costs claimed and also claimed a match percentage that exceeded the
   Corporation minimum requirements, there are no Category A costs questioned here. We questioned
   $41,084 of Categories B-E costs as follows:

                                                                 Categories B-E     Note
               Total Program Costs Incurred                          $85,939
               Less: Unsupported Cost Allocations
                        Costs Allocable to Other Awards
                        Unsupported Costs
                        Preaward Costs Claimed
               Total Allowable Program Costs
               Federal Funding Percentage
               Total Allowable Federal Costs
               Costs Claimed
               Costs Claimed in Excess of Allowable Costs             $41.084

       a.       GBPC did not allocate its program director salary and benefit costs based on actual
                expended effort. The program director worked on both the AmeriCorps and VISTA
                programs, but 100 percent of salary and benefit costs ($66,984) was charged to
                AmeriCorps. OMB Circular A-122, Attachment B, Paragraph 8 (m) (2), Compensation
               for personal services, Support of salaly and wages, requires that reports reflecting an
                after-the-fact distribution of activity be maintained for all personnel whose compensation
                is charged directly to awards. GBPC could not provide records supporting the work
                distribution of the program director's actual between the AmeriCorps and VISTA
                programs. We therefore questioned $66,984.
       b.      GBPC claimed 100 percent of additional costs, totaling $3,263, for expenses such as
               advertising, business cards and office supplies, that should have been allocated between
               the AmeriCorps and VISTA Programs. OMB Circular A-122, Attachment A, Paragraph
               A.4., states that costs are allocable to cost objectives in accordance with benefits
               received. GBPC could not provide documentation supporting the amount allocable to the
               AmeriCorps program. We therefore questioned $3,263.

       c.      GBPC claimed $1,022 for which it could not provide invoices or travel vouchers.
               AmeriCorps Provisions, Section 2 1 (B), Financial Management Provisions, requires that
               grantees maintain adequate supporting documents for all expenditures.

       d.      GBPC claimed $15,759 in costs incurred before its September 3, 2002, grant start date,
               for such costs as member uniforms, building rent, training and office supplies. OMB
               Circular A-122, Attachment B, Paragraph 36, Pre-ugreement costs, states that such costs
               are allowable only with written approval of the awarding agency. GBPC did not obtain
               written approval for its pre-award costs. We therefore questioned $5,030 ($15,759 less
               previously questioned amounts of $10,289) [Note 1.a.], $200 [Note 1.b.], and $240 [Note
               1.c].

2. GBPC claimed $9,889 of administrative expense based upon 5 percent of budgeted Federal
   expenditures. AmeriCorps Provisions, Section 22 (C), Administrative Costs, state that administrative
   costs cannot exceed 5 percent of total Corporation funds expended, or 5.26 percent of total
   Corporation funds expended, excluding administrative costs. During an internal audit, the
   Commission discovered that the claim was based on the budget. GBPC has remitted $2,234 to the
   Commission. We questioned $4,5 17 as shown below, including the $2,234 remittance because this
   amount was included in GBPC's claimed costs:


                                                                  -         Amount
                Total costs claimed                                         $153,096
                Less: Administrative expense
                      Questioned direct costs
                Allowable base costs claimed
                Administrative expense rate
                Allowable administrative expense
                Overclaimed administrative costs ($9,889 - $5,372)             $4.5 17

3. GBPC reported 1,700 hours to the Corporation for one member making the member eligible for an
   education award. However, time sheets for the member supported 1,695 service hours. According to
   45 CFR 5 2522.220 (a), Term of Service, participants must complete 1,700 hours of service to be
   eligible for an education award. We questioned the $4,725 education award for this member.
                                                                                  SCHEDULE D-2


            NEVADACOMMISSIONFOR NATIONAL  AND COMMUNITY SERVICE
               SCHEDULEOF CLAIMEDAND QUESTIONED COSTSUNDER
           CORPORATIONFOR NATIONALAND COMMUNITY  SERVICE AWARDS
                          AWARDNO. 00ASFNV029
                           AMERICORPS-FORMULA
                   SEPTEMBER1,2000, TO SEPTEMBER30,2003
                                            Parasol

                                                         Amount           Notes
               Approved Budget (Federal Funds)          $371,294
               Claimed Costs                            $340,319
               Questioned Federal Costs                  $22,541            1,2
               Questioned Education Award                $23,5 13            3

1.   Parasol incurred $589,595 of member and program operating costs and claimed $340,319 for
     Corporation reimbursement. The difference between incurred and claimed costs is Parasol's
     matching for the grant. AmeriCorps grant provisions establish statutory minimum matching
     funding percentages of 15 percent for member support costs (Category A) and 33 percent for
     program operating costs (Categories B through F). Parasol's matching exceeded the statutory
     minimum. We identified unallowable and unsupported costs, as described in Notes a. through h.
     Claimed costs for Category A exceeded allowable federal costs by $22,153, as follows:

                                                              Category A      Notes
            Total Program Costs Incurred                       $364,5 1 1
            Less: Living Allowances Over Ceiling
                 Costs Misclassified on FSR
                 No Background Check Conducted
                 Unallowable Unemployment Insurance
                 Excess FICA
                 Unallowable Health Insurance
                 Excess Living Allowance
                 Out-of-Period Living Allowance
            Total Allowable Program Costs
            Federal Funding Percentage
            Total Allowable Federal Costs
                   Budgeted Costs
                   Total Allowable Program Costs x
                   Federal Funding Percentage
            Costs Claimed
            Costs Claimed in Excess of Allowable Cost           $22.153
a.   Parasol paid living allowances to its members that exceeded maximum current-year
     amounts for Corporation participation established in AmeriCorps application guidelines.
     AmeriCorps Provisions, Section B (1 1) Living Allowances, Other In-Sewice Benefits and
     Taxes, state that living allowances exceeding these amounts must be funded by the
     grantee. We therefore have excluded these costs from the calculation because they
     exceed the maximum amount of member living allowance.

b.   Parasol erroneously misclassified costs between member support (Category A) and
     program operating (Category B-F) categories on its FSR. The net effect of these
     misclassifications was $1,729 in program operating costs claimed as member support.

c.   Parasol did not conduct required background checks for four members. AmeriCorps
     Provisions, Section B (6), Eligibility, Recruitment, und Selection, require programs with
     members who have substantial, direct contact with children to conduct criminal record
     checks on these members. We therefore questioned the $26,833 in living allowances
     paid to these members.

d.   Parasol claimed unallowable member unemployment insurance costs of $782.
     AmeriCorps Provisions state that grantees cannot charge unemployment insurance taxes
     to the grant unless mandated by state law. The Nevada Department of Employment,
     Training, and Rehabilitation determined that payments to AmeriCorps participants are
     not subject to unemployment insurance taxes. The Commission notified Parasol that
     these costs could no longer be billed, but it did not require that the unallowable costs be
     returned or credited against future billings. We therefore questioned $782.

e.   Parasol claimed Federal Insurance Compensation Act (FICA) costs exceeding 7.65
     percent of member living allowances and employee salaries. AmeriCorps Provisions,
     Section B (1 1) Living Allowances, Other In-Sewice Benejits and Taxes, require that
     grantees pay the employer share of FICA for any member receiving a living allowance.
     The effective FICA rate for employer payments was 7.65 percent of salaries. We
     therefore questioned $5,593 of claimed FICA costs that exceeded costs incurred for
     member living allowances.

f.   Parasol claimed health insurance premiums paid for a part-time member. AmeriCorps
     Provisions, Section B (1 1) Living Allowances, Other In-Sewice Benefits and Taxes, states
     that the Corporation will not cover health care costs for less than full-time members. We
     therefore questioned claimed health insurance costs of $924.

g.   Parasol claimed excess living allowances paid to two members whose contracts specified
     that total living allowances of $8,000 and $10,000 be paid to the two members,
     respectively. Parasol claimed $8,124 for one member and $10,417 for the other.
     However, Parasol erroneously recorded the excess paid to the second member as part of
     Category B-F costs. We therefore questioned $124 from Category A for the first
     member.

h.   Parasol members normally started the program year between September 1,2000, and
     September 15,2000. Parasol paid "catch-up" living allowances to members who started
     the program after September 15. Two of these members quit before the program year
     was over. As a result, these members were effectively paid for service when they were
     not participating in the program. AmeriCorps Provisions state that the living allowance is
     designed to help members meet necessary living expenses incurred while participating in
            the AmeriCorps Program. We therefore questioned $1,458 paid for periods when the
            members were not in service.

2.   Parasol claimed Categories B-F costs of $66,447 that exceeded the approved budget of $66,059
     for these costs. We therefore questioned costs claimed that exceeded the budget.

3.   We questioned education awards of $23,5 13 as follows:

     a.     Parasol permitted a Program Year 2000-2001 member to earn a $3,363 partial education
            award, but did not document the compelling personal circumstances necessary to merit
            the award for a member who leaves the program. Circumstances under which a member
            may leave the program early and earn an education award are detailed in 45 CFR §
            2522.230 (a), Release for Compelling Circumstances, which also requires that the
            program document these circumstances. We therefore questioned $3,363.

     b.      Parasol did not conduct required background checks for four members. AmeriCorps
             Provisions, Section B (6), Eligibility, Recruitment, und Selection, require programs with
             members who have substantial direct contact with children to conduct criminal record
             checks on these members. We therefore questioned $10,700 in education awards for
             these members.

     c.      Time sheets for three members did not support minimum hours required for the education
             award. Parasol recorded 1,700 hours or more in WRRS for each of these members, but
             their time sheets supported less than 1,700 hours. AmeriCorps Provisions, Section B
             (12), Post-Sewice Education Awards, requires members to perform a minimum of 1700
             hours of service established for the program to recelve a full education award. The
             minimum hours of service established for this program are 1,700. Parasol claimed
             $14,175 in education awards for these individuals. We therefore questioned $9,450
             ($14,175 less $4,725 previously questioned in Note 3 .b.).
               NEVADACOMMISSION FOR NATIONALAND COMMUNITY
                                                        SERVICE
                 NOTESTO SCHEDULE OF CLAIMED            COSTS
                                            AND QUESTIONED
               CORPORATIONFOR NATIONALAND COMMUNITYSERVICE
                                                         AWARDS


                    SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

Basis of Accounting

The accompanying schedules have been prepared to comply with provisions of the grant agreements
between the Corporation and the Commission. The information presented in the schedules has been
prepared from reports submitted by the Commission to the Corporation and accounting records of the
Commission and its subrecipients. The basis of accounting used in the preparation of these reports differs
from accounting principles generally accepted in the Unites States of America, as discussed below.

Equipment

No equipment was purchased and claimed under Federal or match share of cost for the period within our
audit scope.

Inventory

Minor materials and supplies are charged to expense during the period of purchase.
                      C(1TTC)N &COMPANY LLP

December 17,2004


Office of Inspector General
Corporation for National and Community Service


                             INDEPENDENT AUDITORS' REPORT ON
                            COMPLIANCE AND INTERNAL CONTROL


We have audited costs claimed by the Nevada Commission for National and Community Service to the
Corporation for National and Community Service for the following awards and have issued our report
thereon dated December 17,2004. We conducted our audit in accordance with auditing standards
generally accepted in the United States of America and generally accepted government auditing
standards.

Program                     -             Award No.              Award Period               Audit Period
Administrative                           01 SCSNVO33            0710 1/01-06130104        0710 1101-06/30/03
Program Development Ass~stance           02PDSNV033             0710 1102-06/30/05        0710 1102-06/30/03
   and Tra~ning(PDAT)
Dlsab~lity                               00DSCNV033             0710 1100-06130103         0710 1100-06130103
Amencorps Competitive                    98ASCNV029             0910 1100-08131/03         0910 1100-09/30/01
AmeriCorps Compet~t~ve                   0 1ASCNV029            06/01/01-05/31/04          06/01/01-12/31/03
AmeriCorps Formula                       00ASFNV029             0910 1100-08131/03         0910 1100-08131103
A~neriCorps
      - - - .-
             .Prom~se
              .--   Fellows
                         --              0 lAPSNV029
                                               -                11101101-10131105
                                                                         -            -   - 11/01/01-12/31/03
                                                                                                         -



COMPLIANCE

As part of obtaining reasonable assurance about whether final schedules are free of material
misstatements, we performed tests of compliance with certain provisions of laws, regulations, and grants,
noncompliance with which could have a direct and material effect on the determination of financial
schedule amounts. Providing an overall opinion on compliance with these provisions was not an
objective of our audit and, accordingly, we do not express such an opinion. Results of our tests disclosed
instances of noncompliance that are required to be reported under generally accepted government auditing
standards (all seven findings discussed below).

INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit, we obtained an understanding of the Commission's internal control
over financial reporting to determine audit procedures for the purpose of expressing our opinion on the
financial schedules and not to provide assurance on internal control over financial reporting. We noted,
however, certain matters involving internal control over financial reporting and its operation that we
consider to be reportable conditions. Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of internal control over financial reporting
that, in our judgment, could adversely affect the Commission's ability to record, process, summarize, and
report financial data consistent with assertions of management in the financial schedules (Finding Nos. 1
and 2, discussed below).
A material weakness is a condition in which the design or operation of one or more of the internal control
elements does not reduce, to a relatively low level, the risk that misstatements, in amounts that would be
material in relation to the financial schedules being audited, may occur and not be detected within a
timely period by employees in the normal course of performing their assigned functions. Our
consideration of the intemal control structure would not necessarily disclose all matters that might be
reportable conditions and, accordingly, would not necessarily disclose all reportable conditions that are
also considered to be material weaknesses. We consider the reportable conditions in Finding Nos. 1 and 2
to be material weaknesses.

FINDINGS

1. The Commission did not have adequate financial monitoring procedures or other procedures to
   ensure that subrecipients had adequate financial management and reporting systems.

The Commission did not adequately monitor the financial progress of its subrecipients to ensure that
adequate financial management and reporting systems were in place, and to ensure that financial reports
were accurate. Specifically, we noted the following:

            GBPC, U.S. Vets, GBI, and Family Resource claimed administrative costs based on 5 percent
            of budgeted expenditures. AmeriCorps Provisions, Section C (22), Administrative Costs,
            state that administrative costs cannot exceed 5 percent of total Corporation funds expended,
            or 5.26 percent of total Corporation funds expended, excluding administrative costs.
            Subrecipients did not understand AmeriCorps provisions regarding administrative costs and
            thought they were entitled to 5 percent of budgeted federal expenditures. Consequently, their
            financial systems did not identify and accumulate administrative costs based on actual
            expenditures.

            Parasol claimed costs on its Periodic Expense Reports (I'ERs) based on budgeted amounts.
            OMB Circular A-122, Attachment A, Paragraph 2, Factors affecting allowability of costs,
            requires that costs be adequately documented to be allowable. Parasol was not familiar with
            Federal cost principles and was thus unaware of the need to identify and accumulate costs, by
            program, in its financial system.

            GBPC and Parasol could not reconcile claimed program costs to their financial management
            systems because the systems did not properly identify, segregate, and allocate program costs.
            GBPC used Excel spreadsheets to calculate claimed AmeriCorps program costs and did not
            update its accounting records to reflect these allocations. Parasol's financial system did not
            identify costs by program year and budget category. According to 45 CFR 5 2543.2 1 (b),
            Standards for Financial Management Systems, recipient financial management systems must
            provide for accurate, current, and complete disclosure of financial results of each Federally
            sponsored program.

            GBPC did not have documented cost allocation procedures and had not updated its financial
            policies for current procedures. AmeriCorps Financial Management Provisions, Section C
            (21), Financial Management Provisions, requires that grantee financial management systems
            include standard accounting practices, sufficient internal controls, and written cost allocation
            procedures. GBPC did not see the need for written cost allocation procedures and did not
            update its financial policies because it generally followed the accounting procedures required
            by individual grants.
            U.S. Vets, GBI, Parasol, GBPC, and B&G Clubs did not have procedures to ensure that
            member and employee time sheets were properly maintained and that all time sheet entries
            and corrections were adequately documented. Specifically, we noted that:

                Time sheet corrections were made using whiteout (lJ.S. Vets, and GBPC).

            .   Time sheet changes were not initialed (U.S. Vets, GBI, Parasol, GBPC, and B&G Clubs).

                Original time sheets were not maintained (U.S. Vets, GBI, Parasol, and GBPC).

                Time sheets were prepared using pencil rather than ink (GBI and Parasol).

                Time sheets were not signed by the member, employee or supervisor (Parasol and B&G
                Clubs).

            In accordance with AmeriCorps Provisions, Section C (21) (c), Time and Attendance
            Records, the grantee (or subrecipient) must keep time-and-attendance records on all
            AmeriCorps members to document eligibility for in-service and post-service benefits. Time-
            and-attendance records must be signed by both the member and an individual with oversight
            responsibilities for the member. Additionally, appropriate OMB Circulars require grantees to
            maintain adequate support for all labor charges, such as time sheets or effort reports.

            The Commission's procedures did not include a review of subrecipient OMB Circular A-133
            reports to verify that reported expenditures agreed to the Commission's records and to resolve
            any discrepancies noted in the review process. According to AmeriCorps Provisions, Section
            C 2 1(d), Audits, recipients must consider whether subrecipient audits necessitate adjustment
            of the grantee's records. The Commission was not aware of this requirement.

            GBPC and Parasol did not submit Financial Status Reports (FSRs) on a timely basis. The
            grant agreements established quarterly due dates for subrecipient FSRs. We noted that the
            following FSRs were not submitted on time:

                                                                                       Actual
                                                                         Date        Submission
         Subrecipient     Program Year         Reporting Period          Due            Date
         GBPC               2002-2003          10/01/02-12/31/02       01/15/03       02/25/03
         GBPC               2002-2003          01/01/03-03/31/03       04/15/03       04/20/03
         Parasol            2000-200 1         07/01/01-09/30/01       10/15/01       10/22/01
         Parasol            200 1-2002         0710 1102-09/30/02      10115/02       10/29/02

The Commission is responsible for ensuring that its subrecipients have adequate financial management
systems and are accurately reporting financial results. The Commission should have detected the
conditions described above in its periodic review of subrecipient expense reports and during its site visits.
The Commission's failure to identify and require corrective action for the above conditions indicates that
it is not adequately monitoring its subrecipients.
Recommendation: We recommend that the Commission:

            Provide training and technical assistance to subrecipients to ensure that they maintain
            adequate financial records and submit accurate and timely financial reports and
            reimbursement requests.

            Add procedures to its site visits to include reconciliation of claimed costs to accounting
            records, and ensure accurate reporting by subrecipients by periodically requesting accounting
            records.

Commission Response

The Commission commented on each of the issues above:

        Subrecipients claimed administrative costs based on 5 percent of budgeted expenditures. The
        Commission stated that it found this discrepancy on its own during its annual internal audit, thus
        proving that it has adequate internal control systems in place.

        Parasol claimed costs based on its PERs based on budgeted amounts. The Commission stated
        that Parasol staff has attended training on Federal cost principles.

        GBPC and Parasol could not reconcile claimedprogram costs to their financial management
        systems. The Commission stated that these are small, community-based organizations without
        the financial sophistication necessary to consistently allocate and segregate program costs. Both
        subrecipients, however, were provided financial training opportunities and had independent
        audits. The Commission will no longer provide financial training as an option, but rather will
        make it a requirement for subcipients.

        GBPC did not have documented cost allocation procedures and had not updated its financial
        policies for current procedures. The Commission stated that it is addressing this problem, but
        pointed out that, since the government is emphasizing grants to small community and faith-based
        organizations, it should consider allocating training funds to systematize Federal grants
        management capacity for these organizations.

        Subrecipients did not have procedures to ensure adequate timekeeping. The Commission has
        instructed all of its programs to place more emphasis on correctly maintaining time sheets. The
        Commission has also revised its program review instrument to reflect tighter monitoring of this
        issue, and is developing an AmeriCorps program training manual to include topics addressing all
        of the audit findings.

        The Commission did not review subrecipient OMB Circular A-I33 reports to verifjl that reported
        expenditures agreed to the Commission's records. The Commission stated that it regularly
        reviews subrecipient audit reports and follows up on applicable findings. It also reconciles the
        subrecipient Schedule of Award to their Financial Status Reports, both on a quarterly and year-
        end basis. There was only one instance where it did not obtain a subrecipient's audit report due to
        a discrepancy in program year and audit due dates.

    0   GBPC and Parasol did not submit Financial Status Reports (FSRs) on a timely basis. The
        Commission stated that its program officer noted that GBPC's reports were late, and verbally
        warned GBPC that it would be fined for future late reports. The subrecipients did not meet the
        Commission's deadlines, but the Commission wasn't late in submitting its reports to the
        Corporation.

The Commission agrees that it needs to improve its program monitoring procedures. It has changed its
program review instrument to include reconciling claimed costs to accounting records. It has
strengthened its financial monitoring by:

        Making changes to its program review instrument.
        Requiring subrecipients to submit financial statements regularly.
        Verifying match more often.
        Training subrecipients on match and time sheet allocation.
        Strengthening its written policies and procedures.
        Developing a training plan for subrecipients.
        Instructing subrecipients not to miss reporting deadlines, and requiring written approval for any
        extenuating circumstances.

Auditors' Additional Comments

The Commission's corrective actions, as described, are responsive to our recommendations. No
additional comments are necessary.


2. The Commission claimed unallowable and unsupported costs.

The Summary of Results section identified questioned costs, which are described in detail in the notes to
Schedules A through D. These questioned costs consist of costs claimed by the Commission and
subrecipients for which documentation shows that recorded costs were not expended in accordance with
laws, regulations, or specific conditions of awards; costs that require interpretation of allowability by the
Corporation; and costs that require additional documentation to support allowability.

Because costs incurred by subrecipients exceeded reimbursable grant amounts, there were many
additional unallowable amounts that did not result in questioned costs, and therefore the cost exceptions
in our exhibits do not reflect the extent of noncompliance with applicable cost provisions. In addition to
amounts identified in Schedules A through D, additional unallowable and unsupported costs were
identified that did not result in questioned costs because they were either match costs or program costs
that exceeded claimed amounts. Those additional unallowable costs included:

        GBPC, Parasol, and GBI claimed staff labor costs based on budgeted amounts rather than actual
        effort expended. Additionally, U.S. Vets claimed staff labor costs that had been claimed under
        another Federal program. Time sheets for these employees did not identify the programs worked
        for, or any distribution between programs. These entities also did not have adequate labor
        distribution systems in place to support actual effort expended, such as time sheets or periodic
        certifications of effort. Subrecipients are required to follow OMB Circular A-122, Attachment B,
        Paragraph 8 (m), Compensationfor Personal Services, Support of salaries and wages, which
        requires that claimed labor costs be supported by reports that:

                 Reflect an after-the-fact determination of employee activity.
                 Account for the total activity for which an employee is compensated.
                 Are signed by the employee or a supervisor having knowledge of the activities that were
                 performed.
                 Are prepared at least monthly and coincide with the subrecipient's pay period.
                                                      28
These requirements are the same for costs claimed as reimbursed costs, or used as match.

The Commission claimed staff labor under the Administrative, PDAT, and Disability grants for
which adequate supporting documentation was not available. It allocated certain labor costs
among its grants, but did not make the allocations based on actual effort expended. Based on a
requirement from the Corporation's Administrative Standards review, the Commission required
employees to keep activity-based time sheets, as required by OMB Circular A-122, Attachment
B, Paragraph 8 (m), Compensation for Personal Services, Support of salaries and wages.
However, the labor effort reported on the time sheets were ultimately not used to allocate wages
between the final cost objectives. All labor costs incurred by the Commission were allocable to
one of the Corporation grants and as a result, no net questioned costs were related to this finding.

U.S. Vets and Parasol claimed several costs for which they had no supporting documentation.
Certain sampled expenses could not be supported with receipts or other documentation to
determine the nature of the expense. In the majority of these instances, U.S. Vets and Parasol had
misplaced the supporting documentation. Additionally, U.S. Vets claimed costs that were later
credited from the program. However, the credit adjustment was not applied to its financial
reports.

GBPC claimed unallowable member unemployment insurance. AmeriCorps Provisions, Section
B (1 I), Living Allowances, Other In-Service Benefits and Tuxes, state that grantees cannot charge
unemployment insurance taxes to the grant unless mandated by state law. The Nevada
Department of Employment, Training, and Rehabilitation determined that payments to
AmeriCorps participants are not subject to unemployment insurance taxes.

Parasol claimed Federal Insurance Compensation Act (FICA) costs that exceeded the maximum
FICA rate incurred for member living allowances and employee salaries. Parasol claimed
excessive FICA costs for member living allowances and employee salaries.

Parasol claimed rent, telephone, and program evaluation costs based on the award budget. While
Parasol had documentation to support total costs incurred on these items, it could not provide
support for amounts allocated to this program.

Parasol claimed costs paid to its program director for a bonus in PY 200 1-2002. OMB Circular
A-122, Attachment B, Paragraph 8 Cj), Compensation forpersonal services, Incentive
Compensation, requires that, for such costs to be allowable, they must be paid "pursuant to an
agreement entered into in good faith between the organization and the employees before the
services were rendered, or pursuant to an established plan followed by the organization so
consistently as to imply, in effect, an agreement to make such payment." Parasol could not
provide an advance agreement document or a documented bonus plan.

Parasol claimed costs that were not necessary for the operation of the program. Costs incurred
included expenses for a going-away party for a program director, ski lift tickets, phone cards and
airline miles. While certain of these costs were in-kind contributions and therefore claimed as
match, all such costs allocated to the program must be necessary, reasonable and adequately
supported.

Parasol claimed vehicle costs based on the current market value. A third party, however, retained
title to these vehicles, and therefore the vehicles were loaned and not donated. The contributed
amount claimed should have been based on the fair rental rate for the period claimed, not the full
       market value of the vehicle.

This high number of identified unallowable cost items reflects a lack of subrecipient awareness of
applicable cost principles. Additionally, it indicates that the Commission was not performing adequate
subrecipient monitoring regarding the assurance of cost allowability.

Recommendation: We recommend that the Corporation:

        Follow up with the Commission to determine if questioned and unsupported amounts should be
        allowed, or disallowed and recovered.

        Ensure that the Commission better train, its subrecipients on determining the allowability of costs
        and documentation required to support claimed costs.

We recommend that the Commission:

        Implement review procedures to test the allowability of costs.

        Ensure that costs incurred directly by the Commission meet all OMB circular requirements for
        allowability.

Commission Response

The Commission commented on each of the issues above:

        Several subrecipients claimed staff labor costs based on budgeted amounts rather than actual
        effort expended. The Commission has revised its program review instrument to include more
        emphasis on reviewing the proper allocation and recording of staff labor costs. The Commission
        is developing a pre-service training manual with emphasis on this subject, and also training for its
        subrecipients on applying OMB Circular principles.

        The Commission did not allocate labor costs among its grants based on actual effort expended.
        The Commission has implemented a quarterly, after-the-fact reconciliation that compares actual
        effort to allocations and to grant draws.

        Several subrecipients claimed costs for which they had no supporting documentation. The
        Commission stated that it relies on sample testing in its financial monitoring process, and it has
        not detected as many instances of unsupported amounts as the auditors found. The Commission
        will require all subrecipients to attend training on the OMB Circular principles.

The Commission stated that a number of the unallowable cost issues relate to one small community-based
subrecipient that doesn't have the systems necessary to avoid these mistakes. The Commission further
noted that none of the Commission costs claimed were questioned for allowability.

The Commission stated that it has revised its program review instrument to document testing of the
allowability of costs. This subject will also be covered in the Commission's training for subrecipients on
OMB Circular principles.
Auditors' Additional Comments

The Commission's corrective actions, as described, are responsive to our recommendations. No
additional comments are necessary.


3. The Commission did not have adequate procedures in place to ensure member eligibility.

The Commission did not adequately monitor and train subrecipients to ensure that all members were
eligible to earn their living allowances and education awards. We noted that members did not always
have adequate documentation of citizenship, proof of high school diplomas or GEDs, and required
background checks. We also noted that subrecipients claimed unallowable member service hours as
meeting education award requirements, and that one member was inappropriately awarded a partial
education award. Specifically:

        Member files at several subrecipients did not contain proof of citizenship. According to 45 CFR
        tj 2522.200, a member must provide documentation of status as a U.S. citizen or legal resident.
        Subrecipients did not, however, have procedures to ensure that this documentation was
        maintained in member files. We noted that member files did not include proof of citizenship, as
        follows:

                                                            Files        Missing
                      Subrecipient                         Tested      Information
                      GBI-Promise Fellows                      4            1
                      U.S. Vets                              32             5
                      GBPC                                     8            1

        U.S. Vets member files did not always include copies of high school diplomas or equivalent
        records. We tested 41 member files and determined that 14 Program Year 2000 - 2002 files did
        not include this documentation. According to 45 CFR 5 2522.200, Participant Eligibility,
        Requirements, and Benefits, members must have a high school diploma or equivalent or must
        agree to obtain a high school diploma or its equivalent. U S . Vets attempted to comply with this
        regulation by requiring members to complete and sign a form that provided information on high
        school graduation. These forms did not, however, meet the AmeriCorps requirements for those
        program years.

        GBI did not have procedures in place to determine if background checks were necessary for
        Promise Fellow applicants. Parasol did not conduct required background checks on four of its
        members in Program Years 200 1-2002 and 2002-2003. Parasol placed responsibility for
        performing background checks with its individual sites and did not verify that they had been
        conducted. Failure to perform these background checks could result in children and other
        vulnerable persons being placed in harm's way. AmeriCorps Provisions, Section B (6) (h),
        Criminal Record Checks, require that programs with members who have substantial direct contact
        with children must conduct criminal record checks on these members and maintain this
        documentation in member files.

        B&G Clubs counted 120 hours of leave time in Program Year 2002-2003 toward a member's
        1,700-hour minimum service requirement. These hours are not allowable in accordance with
        AmeriCorps Promise Fellows Provisions, Section B (8), Terms of Sewice, which requires that
        members must serve at least 1,700 hours during a period of not less than 10 months and not more
        than 12 months. The program director was unaware that only actual service hours should be
        counted toward the minimum service requirement.

        U S . Vets granted a partial education award to a member who prematurely exited the program
        without documenting the compelling personal circumstances necessary to merit a partial
        education award. The member was released for violating program rules of conduct, but the exit
        form indicated a release for health reasons. In addition, U.S. Vets granted partial education
        awards to two members who left the program early, and Parasol did so for one such member,
        without documenting compelling personal circumstances. Subrecipients did not have procedures
        to ensure that the reasons for early releases were properly documented. Without such procedures,
        members may earn partial education awards for which they are not eligible.

                45 CFR   5 2522.230(a) (4) states that:
                         The program must document the basis for any determination that
                         compelling personal circumstances prevent aparticipant from
                         completing a term of service.

                45 CFR   9 2522.230(b) (3) states that:
                         A participant who is released for cause may not receive any portion of
                         the AmeriCorps education award or any other payment from the
                         National Service Trust.

As part of its monitoring requirements, the Commission is responsible for ensuring that subrecipients are
adequately trained in programmatic provisions and procedures to ensure that members are eligible to
serve and have met all eligibility requirements for education awards.

Recommendation: We recommend that the Commission strengthen its program monitoring procedures to
ensure that subrecipients meet requirements of 45 CFR 8 2543.5 1. Specifically, the Commission should
ensure that its subrecipients are:

        Adequately documenting and ensuring member citizenship.

        Ensuring that members have either obtained a high school diploma or GED or have stated that
        they were working toward obtaining a diploma or GED.

        Recording member hours accurately and in accordance with program provisions.

        Maintaining adequate documentation.

        Obtaining member background checks when warranted.

        Only recording and crediting actual service hours toward the 1700-hour service requirement.

        Properly documenting compelling personal circumstances when approving partial education
        awards for members who leave a program early.

Commission R e s ~ o n s e

The Commission commented on each of the issues above:
       Memberfiles at several subrecipients did not contain proof of citizenship. The Commission
       stated that it has always maintained a strict policy on citizenship documentation and has
       emphasized this in program director training. The Commission is now testing 100 percent of
       member files during its site visits.

        U.S. Vets memberfiles did not always include copies of high school diplomas or equivalent
       records. The Commission stated that during the time period in question, programs were
       following the Corporation's AmeriCorps Director Handbook, which for a time did allow the
       method used by U.S. Vets as an alternative to high school diplomas. The Commission has
       routinely accepted official college transcripts as proof. The Commission asks that the
       Corporation rely on institutions of higher learning to verify that members have graduated with a
       high school diploma or GED before they use their education awards.

       GBI and Parasol did not have procedures to ensure that all necessary background checks were
       conducted. The Commission is reviewing all available information regarding fingerprinting for
       required populations on the state and local levels. The Commission is requiring all programs to
       review and report to the Commission on their procedures, and will provide ongoing training on
       this subject to subrecipients.

The Commission began implementing a 100 percent review of program files in its on-site reviews
conducted in 2004. These reviews include verification of citizenship, high school diploma or GED, time
sheets to WBRS, background checks, service hour descriptions, and documentation of compelling
personal circumstances. Subrecipients are required to consult with (:ommission staff before they allow a
member to leave the program early.

Auditors' Additional Comments

The Commission's corrective actions, as described, are responsive to our recommendations. No
additional comments are necessary.


4. The Commission did not have adequate procedures to ensure that members received living
   allowances in accordance with AmeriCorps Provisions.

Several subrecipients did not pay member living allowances in accordance with AmeriCorps regulations,
resulting in members being overpaid or underpaid. Certain subrecip~entspaid members hourly, while
others paid members a lump sum for the program year, regardless of service time incurred. Specifically:

        Parasol paid five members lump sums when they completed the program early.

        Parasol paid two members, who started after the beginning of Program Year 2000-2001, a "catch-
        up" amount so that their living allowance would equal amounts paid to those members who had
        started their service at the beginning of the program year.

        GBPC paid its members their living allowances based on an hourly rate and also paid a Program
        Year 2002-2003 living allowance to a person who was not officially enrolled in the AmeriCorps
        program.

        U.S. Vets paid two members lump sums when they completed the program early.

        U.S. Vets paid a member a living allowance for periods outside of the service term. The member
        was released for compelling personal circumstance, but received a lump sum as if the member
        successfully completed the program early.

Subrecipients did not understand AmeriCorps provisions on living allowances, and the Commission did
not have monitoring procedures in place to ensure that members were paid appropriately. AmeriCorps
Provisions, Section B (1 1) Living Allowances, Other In-Sewice Benefits and Taxes, states:

                The living allowance is designed to help members meet the necessary living
                expenses incurred while participating in the AmeriCorps Program. Programs
                must not pay a living allowance on an hourly basis. It is not a wage and should
                not fluctuate based on the number of hours members sewe in a given period.

Because the living allowance is designed to cover living expenses for members while participating in the
program, payouts and catch-up amounts are not allowed, even if the member does not earn the maximum
award available.

Recommendation: We recommend that the Commission strengthen its program monitoring procedures to
ensure that subrecipients meet requirements of 45 CFR 9 2543.5 1 Monitoring and reportingprogram
performance. Specifically, the Commission should ensure that subrecipients are calculating and paying
living allowances in accordance with program and grant provisions. We also recommend that the
Corporation clarify this grant provision.

Commission Response

The Commission commented on each of the issues above:

            Parasol and U S . Vetspaid several members lump sums when they completed the program
            early. The Commission disagrees with the auditors' interpretation of the AmeriCorps
            provisions. Programs contract to pay the stated living allowance for the stated number of
            hours. If members who complete their hours early do not receive the remaining living
            allowance, they are being penalized by not receiving the full amount of their contract.
            Additionally, members who are slow to complete their hours and receive the entire living
            allowance would appear to be unfairly rewarded.

             Parasol paid two members, who started after the beginning of Program Year 2000-2001, a
              "catch-up" amount. The Commission noted that Parasol eliminated this procedure after its
             first year as a program.

             GBPCpaid a Program Year 2002-2003 living allowance to a person who was not oficially
             enrolled in the AmeriCorpsprogram. The Commission stated that it discovered and
             reconciled this item, and GPBC was ultimately not reimbursed for any costs associated with
             member overpayments.

The Commission stated that, during its site visits, it reviews payroll schedules and general ledger detail to
verify that living allowances are evenly distributed.

Auditors' Additional Comments

The AmeriCorps Provisions state that the intent of the member living allowance is to provide subsistence
while the member is participating in the program, not to compensate members for services rendered.
Member payments made subsequent to a member completing service are not within the scope of the
AmeriCorps grant.

The Commission's corrective action, as described, is partially responsive to our recommendations. In
conjunction with its review of the financial records, the Commission also needs to review program
records to ensure that living allowance payments are not being made to persons not currently participating
in the AmeriCorps program.


5. The Commission did not have procedures to ensure that subrecipients adequately documented
   member activities.

Several subrecipients did not adequately document member activities in accordance with AmeriCorps
Provisions. Certain subrecipients did not maintain or complete member evaluations, enrollment forms,
exit forms, or completed those forms improperly or in an untimely manner. Certain subrecipients did not
adequately document member attendance at orientation sessions and required training. Finally, certain
subrecipients could not support the number of claimed member hours in WBRS with member time sheets.
Specifically:

    0   Member files for six programs at five subrecipients were missing documentation on mid-term
        and/or final evaluations. ArneriCorps Provisions, Section B (7) (g), Perforwzance Reviews,
        require that grantees conduct at least mid-term and end-of-term evaluations of each member's
        performance, documenting that the member has:

                    Completed the required number of hours.
                    Satisfactorily completed assignments.
                    Met other performance criteria that were clearly communicated at the beginning of
                    the service term.

        We noted that evaluations were missing from subrecipient files, were unsigned, or did not comply
        with AmeriCorps requirements because they did not indicate if the member had completed the
        required number of service hours. Subrecipients did not have procedures in place to ensure that
        all evaluations were properly completed and maintained in member files.

        Evaluations are necessary to ensure that members are eligible for another term of service.
        According to 45 CFR 2522.220 (c), Eligibility for second term, a participant is not eligible for a
        second or additional term of service andlor for an AmeriCorps educational award without
        undergoing mid-term and final evaluations. Following is a summary of evaluations tested:

                                                               Number of Evaluations
             Subrecipient                       Tested     Missing   Unsigned     Did Not Comply
             GBI                                 22            4          16               8
             U.S. Vets                           38           18           2               -

             Parasol                             32            7         13               10
             GBPC                                16            3           1               5
             B&G Club-Promise Fellows             1             -          -               1
             GBI-Promise Fellows                  8            2           4               2
GBPC did not report to the Corporation the enrollment and release from service for one member,
because it was unable to access WBRS. In addition, member files at several subrecipients lacked
sufficient information to document member enrollment and exit. AmeriCorps Provisions, Section
B (16) (b), AmeriCorps Member-Related Forms, require that member enrollment forms be
submitted to the Corporation no later than 30 days after a member has enrolled, and that member
exitlend-of-term-of-service forms be submitted no later than 15 days after a member exits the
program.

We noted that enrollment and end-of-term-of-service forms were missing, were submitted late, or
lacked member signatures when entered in WBRS as follows:

                                         Number of Forms
       Subrecipient     Tested       Missing      Late              Unsigned
       GBI                22              -          7                   -

       U.S. Vets           38             5          -                  2
       Parasol             32             1          2                  1
       GBPC                16             1          1                  4

Subrecipients did not have procedures in place to ensure that these forms were completed and
submitted in a timely manner and were retained in member files. Subrecipient failure to promptly
obtain and submit this information can result in inaccurate Corporation member enrollment
records.

Member files at several subrecipients lacked sufficient information to document member
attendance of orientation. Specifically:

        U.S. Vets could not provide agendas or sign-in sheets or any other documentation to
        support that member orientations were held during the three program years we reviewed.

        GBI could not provide orientation information and documentation for its Program Year
        2001 -2002 Promise Fellow members and 14 of its AmeriCorps members.

        Parasol could not provide documentation that 4 of the 16 members tested received an
        orientation.

        GBPC could not provide documentation that one of the eight members tested received an
        orientation.

AmeriCorps Provisions, Section (B) (7), Training, Supervision and Support, require that grantees
conduct orientations for members covering member rights and responsibilities, including the code
of conduct, prohibited activities, Drug-Free Workplace Act requirements, grants for suspension
and termination from service, grievance procedures, sexual harassment, other non-discrimination
issues, and other topics as necessary.
       Hours recorded by subrecipients in WBRS were not always properly supported by member time
       sheets. AmeriCorps Provisions, Section C (21) (c) Time and Attendance Records, require that
       grantees keep time-and-attendance records on all AmeriCorps members to document eligibility
       for in-service and post-service benefits. The Corporation uses this information in WBRS to track
       member status, and these hours are the basis for the issuance of education awards. Subrecipient
       program personnel, however, made data-entry errors when recording member hours in WBRS.
       We noted that total hours supported by time sheets varied from total hours on WBRS for
       members as follows:


                                                         Files     Files with
                     Subrecipient                       Tested   Discrepancies
                     U.S. Vets                            27            11
                     Parasol                              25            14
                     GBPC                                 24            12
                     B&G Club-Promise Fellows              1             1
                     GBI-Promise Fellows                   4             3


Recommendation: We recommend that the Commission strengthen its program monitoring procedures to
ensure that subrecipients meet AmeriCorps Provision requirements regarding member activities
including:

       Being aware of, and complying with, grant requirements for conducting and retaining member
       evaluations.

       Documenting member enrollments and exits promptly and submitting this information to the
       Corporation on a timely basis.

       Maintaining orientation and training records.

   0   Recording member hours accurately and in accordance with program and grant provisions.

Commission Response

The Commission stated that it agrees with the recommendations and has already implemented changes.
The Commission also commented:

       Member files for six programs atJive subrecipients were missing documentation on mid-term
       and/orfinal evaluations. The Commission stated that it has been providing guidance and
       emphasizing the importance of member evaluations via conversations, e-mail reminders, and
       during its site reviews.

       GBPC did not report to the Corporation the enrollment and release from service for one member
       and member files at several subrecipients lacked suficient it formation to document member
       enrollment and exit. The Commission stated that it monitors all member forms in its site visits,
       and that it monitors compliance with the 30-day enrollment timeframe on WBRS. The
       Commission stated that it also covers this issue in its program director training.

        MernberJiles at several subrecipients lacked suflcient information to document member
       attendance of orientation. The Commission stated that it has instructed all programs in the proper
                                                   37
         documentation of training events, and accompanying member sign-in sheets. The Commission
         requires agendas and sign-in sheets as documentation for all training meetings.

         Hours recorded by subrecipients in WBRS were not always properly supported by member time
         sheets. The Commission stated that it has instructed all program directors to conduct random
         desk audits comparing time sheets to WBRS. In addition, the Commission will be conducting
         quarterly desk audits of all programs to randomly sample proof of eligibility, time sheets,
         performance measurements data, and other items.

Auditors' Additional Comments

The Commission's corrective actions, as described, are responsive to our recommendations. No
additional comments are necessary.


6.       The Commission did not have procedures to ensure that subrecipients complied with all
         grant compliance provisions.

Several subrecipients did not adequately document compliance with all grant provisions, including
nondiscrimination requirements, progress reporting requirements, establishment of grievance procedures,
adequate member contracts, and record retention requirements. Specifically:

     0   U.S. Vets, Parasol, and GBPC did not obtain and maintain racial and ethnic data for program
         staff, because they were unaware that this data were required. AmeriCorps Provisions Section C
         (30), Non-Discrimination, requires that Commissions have racial, ethnic, sex, and disability data
         available for program staff as well as for applicants.

         U S . Vets did not submit all required progress reports and, for those it did submit, did not always
         submit the reports to the Commission by the required dates. U.S. Vets' grant agreement required
         that quarterly progress reports be submitted and established due dates for these reports. For the
         three program years in our audit, U S . Vets submitted seven progress reports after the stipulated
         due date and did not submit two reports in Program Year 2001-2002.

         U.S. Vets, Parasol, and GBPC did not establish procedures for handling grievances from outside
         parties because they were unaware that this was required. According to 45 CFR 5 2540.230,
         What grievance procedures must recipients of Corporation assistance establish?, subrecipients
         must "establish and maintain a procedure for the filing and adjudication o f grievances
         from participants, labor organizations, and other interested individuals concerning
         programs that receive assistance from the Corporation".

         U.S. Vets, GBPC, GBI, and B&G Clubs did not include all required provisions in member
         contracts. AmeriCorps Provisions Section B (7), Training, Supervision, and Support, requires
         members to sign contracts that stipulate prohibited activities, Drug-Free Workplace Act
         requirements, and position descriptions. These subrecipients' member contracts did not identify
         prohibited activities. In addition, GBPC and B&G Clubs member contracts did not include
         position descriptions. The B&G Clubs member contracts also did not include Drug-Free
         Workplace Act requirements. Subrecipients did not have procedures to ensure that member
         contracts included all required provisions.

         GBPC did not have a documented record-retention policy, although its stated policy is to retain
         records for five years. This policy does not conform with AmeriCorps Provisions, Section C
                                                      38
        (26), Retention of Records, which require that grantees retain financial and program records for
        three years from the date of submission of the final FSR. GBPC was unaware of this
        requirement.

According to 45 CFR 5 2543.5 1, recipients are responsible for managing and monitoring each project,
program, subaward, function or activity supported by the award.

Recommendation: We recommend that the Commission strengthen its program monitoring procedures
to ensure that subrecipients meet requirements of 45 CFR 5 2543.5 1. Specifically, the Commission
should ensure that its subrecipients are:

            Obtaining and maintaining raciallethnic data for all personnel.
        0   Submitting progress reports in a timely manner.
            Establishing procedures for handling grievances from outside parties.
            Utilizing member contracts that include all required information.
            Maintaining a documented record-retention policy.

Commission Response

The Commission stated that it agrees with the recommendations and has already implemented them. The
Commission also commented:

        U S . Vets, Parasol, and GBPC did not obtain and maintain racial and ethnic data for program
        stafl The Commission stated that it has notified programs to maintain this data, and that
        programs are to use the Corporation's member application form as an example in gathering this
        data from program staff.

        U S . Vets did not submit, or did not submit timely, all requiredprogress reports. The
        Commission stated that all programs are aware that the Commission requires strict adherence to
        progress report due dates, and programs must obtain permission is order to submit a late report.

        US. Vets, Parasol, and GBPC did not establish procedures,for handling grievances from outside
        parties. The Commission created one standard gnevance policy and procedure, and instructed its
        programs to use this starting in early 2004. This insures that the form includes all applicable
        requirements, and there is uniformity on the issue.

        U.S. Vets, GBPC, GBI, and B h G Clubs did not include all requiredprovisions in member
        contracts. The Commission has revamped member contracts, and all are reviewed for these
        compliance issues.

        GBPC did not have a documented record-retention policy, although its stated policy is to retain
        records forjveyears. The Commission stated that, although GBPC did not have this policy, its
        stated requirement exceeded the required minimum.

Auditors' Additional Comments

The Commission did not describe its corrective actions to address the record-retention policy issue. We
do not agree that GBPC's stated record-retention policy exceeded the required minimum, because it does
not provide for situations where there is a delay in submitting the final FSR. Conceivably, in accordance
with its stated policy, GBPC could destroy program records which should be retained because the final
FSR was submitted less than three years before. The Commission needs to ensure that all of its
subrecipients have documented records retention policies that comply with AmeriCorps provisions.

The Commission's other corrective actions, as described, are responsive to our recommendations.

7. The Commission did not adequately document its consideration of relevant past performance
   by subrecipients in its subgrant award process.

The Commission did not include information regarding results of past OMB Circular A-133 audits and, in
Program Year 2003, did not include program accomplishments for renewal applicants in its subgrant
award process. The form used by peer reviewers during subrecipient selections did not include sections
to document OMB Circular A- 133 audit results. In Program Year 2003, the peer reviewers did not
document review of progress reports as evidence of past program accomplishments.

According to 45 CFR 9 2522.410 (b), Program Criteria, criteria used in competitively identifying
subrecipients must include past performance of the organization or program. Failure to evaluate past
experience could result in awards being made to subrecipients that are unable to satisfactorily carry out
program goals.

Recommendation: We recommend that the Commission evaluate all aspects of subrecipient past
performance, including progress reports and OMB Circular A- 133 audit results, and consistently include
past performance results in the information provided to peer review selection teams.

Commission Response

The Commission stated that it agrees with this recommendation and began implementing it during peer
review in 2005. It has revised the peer review forms so that discussions regarding financial reviews
(including audits) as well as progress reports are now documented.

Auditors' Additional Comments

The Commission's corrective action, as described, is responsive to our recommendation. No additional
comments are necessary.



This report is intended for the information and use of the Office of Inspector General, the Corporation for
National and Community Service, the Nevada Commission for National and Community Service and its
subrecipients, and the U.S. Congress. However, this report is a matter of public record and its distnbution
is not limited.


COTTON& COMPANY
              LLP




Sam A. ~ a d l e ~ CGFM
                   , ' ~ ~ ~ ,
Partner
                                                                                      ATTACHMENT A

                       OF FINDINGS
                  STATUS          FROM THE PRE-AUDIT
                                                   SURVEY OF THE
                NEVADACOMMISSION FOR NATIONALAND COMMUNITY SERVICE
                          OF INSPECTOR
                     OFFICE           GENERAL REPORTNO. 01-17

The findings listed below were included in Office of Inspector General Report No. 01-17 dated October
27,2000. A number of these findings address issues involving the Nevada Department of Employment,
Training, and Rehabilitation (DETR). The Commission was part of DETR until May 15, 1998, when it
became an independent not-for-profit organization. The status of each finding is addressed below.

    Lack of Pre-Award Risk Assessment for PY 1999-2000.

    For Program Year 1999-2000, the Commission had not yet established a thorough pre-award risk
    assessment process to fully evaluate applicants' financial and management capabilities.

    Current Status: The Commission revised its procedures relating to pre-award risk assessments to
    include the review of an applicant's internal control structure, accounting procedures, and any prior-
    year audit reports. During our testing, however, we noted that the Commission did not adequately
    document its review of subrecipients' past performance in its selection process (Finding No. 7).


    Insufficient Procedures Related to Pre-Award Risk Assessments and Grievances.

    DETR did not have adequate pre-award procedures in place to evaluate applicants' financial and
    management capabilities. Also, DETR did not have written grievance procedures in place for
    unsuccessful grant applicants.

    Current Status: The Commission is no longer part of DETR, and its internal controls and policies
    and procedures have been revised. We independently evaluated the controls over pre-award risk
    assessments and identified a related finding (Finding No. 7).

    Missing Documentation Supporting the Selection Process.

    DETR could not locate a list of applications from applicants that had been rejected for funding, copies
    of letters that were sent to rejected applicants, documentation supporting the reasons for funding
    denials, or documentation supporting the review performed for 2 of 4 accepted applicants.

    Current Status: The Commission is no longer part of DETR, and its internal controls and policies
    and procedures have been revised. We independently evaluated the controls over the selection
    process and had no related findings.

    Untimely and Inaccurate Financial Status Reports (FSRs)

    DETR did not submit administrative grant FSRs in a timely manner and made a mathematical error in
    one FSR. Also, DETR did not follow up when a subrecipient submitted an FSR 38 days late.

    Current Status: The Commission is no longer part of DETR, and its internal controls and policies
    and procedures have been revised. We independently evaluated the controls over the financial
    reporting process and had a related finding (Finding No. 1).
5. Missing Documentation Supporting Grant Administration.

   DETR was not able to provide adequate documentation to support payments to subrecipients,
   including documentation of funding requests submitted by subrecipients and Federal expenditures
   reported on FSRs for subrecipients and the Commission.

   Current Status: The Commission is no longer part of DETR, and its intemal controls and policies
   and procedures have been revised. We independently evaluated the controls and related
   documentation to support subrecipient payments and had no related findings.

6. Insufficient Subrecipient Monitoring Procedures and Related Documentation.

   DETR did not have an adequate system in place to collect and review subrecipient OMB Circular A-
   133 audit reports. Also, DETR did not adequately document the procedures performed during
   subrecipient site visits, or the results of those visits.

   Current Status: The Commission is no longer part of DETR, and its intemal controls and policies
   and procedures have been revised. We independently evaluated the controls related to the review of
   subrecipient A-133 reports and had a related finding (Finding No. 1).
                            Appendix A


Response of the Nevada Commission for National and Community Service
                on tor National tk Gommunity Service, lnc.
                                               1 37 Keddie Street
                                               Fallon, NV 89406
                                                 (775) 423-146 1



Commissioners               April 28,2005
Joe Cobery, Chair
Churchill County Social
Services                    Ms. Carol Bates
Rich Becker, Vice-Chair     Assistant Inspector General for Audit
Copywrite, Ink.             Corporation for National & Community Service
Gina Polovina, Secretary    Office of Inspector General
Boyd Gaming Corporation
                            1201 New York Ave., NW, Suite 830
Raelene Palmer, Treasurer   Washington DC 20525
Clark County District
Attorney's Office
Lacey Alderson              RE: Audit Report No. 05- 10
Youth Volunteer
Janice A y e s              Dear Ms. Bates:
Nevada Rural Counties
RSVP
Lt. Larry Bums              Thank you for the opportunity to comment on the report summarizing the
Las Vegas Metro Police      incurred-cost audit of grants awarded to the Nevada Commission for
Robyn Clayton               National and Coimmunity Service, Inc. ("Commission"). The Commission
Southwest Gas Corporation   is pleased there were no questioned costs on the commission-level. We
Charlotte Curtis            have put many procedures and policies in place to ensure that all federally-
Nevada Department of
Education                   h d e d programs are in compliance with federal law.
Chrissy Lane
IGT, Reno                   This package includes a response to all questioned costs at the subgrantee
Ryan Paul                   level according to Schedule, as well as a response to each of the findings in
Youth Volunteer             the independent auditor's report on compliance and internal control. The
Fran Smith                  Commission has worked extensively with each subgrantee to resolve all
Volunteer Center of         audit issues.
Southern Nevada
Tom Warden
The Howard Hughes           Please feel free to contact me at (775) 423-1461 if you need additional
Corporation                 information for the final report. We look forward to working with the
Craig Warner                Office of Grants Management to resolve all issues.
Corporation for National
and Community Service
Janet Wright
                            Sincerely,
Nevada Service Learning
Partnership                                                                C7--rrrLY
                            SHAWN R. LECXER-POMAVILLE                       JOSEPH COBERY
Executive Director          Executive Director                              Chairman of the Board
Shawn R. Lecker-
Pomaville

                            Cc:   Rosie Mauk, Director, ArneriCorps
                                  Peg Rosenberry, Director, Ofice of Grants Management
                                  Douglas Gerry, GrantsFinancial Analyst




                            Nevada Commission for National and Community Service Inc.
                                Schedule A
                   Award No. 01APSNV029 - Promise Fellow

   1. No questioned costs.
   2. Because the grant remains open and the auditors have not questioned the cost
      at this time, we will continue to work on this issue. Great Basin Institute
      (GBI), the sub-grantee, has reported that despite significant attempts to obtain
      the documentation, including speaking directly with the former member, she
      declined to provide it. An 1-9 for the member is on file. The Nevada
      Commission for National and Community Service, Inc. has provided training
      with emphasis on this issue over the years. GBI is still pursing this matter.
   3.      a. Boys and Girls Clubs of Las Vegas, the sub-grantee, is aware that this
      is their error. The Promise Fellow's supervisor mistakenly applied internal
      personnel policies to the AmeriCorps member in allowing paid time OK The
      former member :iscurrently employed at the Boys and Girls Clubs and is
      agreeable to serving the 120 hours in an attempt to resolve the issue.
           b. This is the same member and same response as in No. 2 above.

                              Schedule B-1
             Award NO.98ASCNV029 - AmeriCorps Competitive:
                     U. S. Veterans Initiative (USVI)

   1. No questioned costs.
   2.    a. USVI Release for Cause or Compelling Personal Circumstances: USVI
      states they can find the program director for that year and obtain an
      explanation for this discrepancy.
         b. We think it"s reasonable to assume human error could account for this
      discrepancy between timesheet and WBRS and request that this education
      award not be questioned for a one-hour difference.

                               Schedule C-1
              Award No. 01ASCNV029 - AmeriCorps Competitive:
                         Great Basin Institute (GBI)

  1. The claim for adrrunistrative expenses in excess of 5% of grants expended was
     discovered in the Commission's own internal audit for 2003 and finds were
     returned prior to tlhe Inspector General's field work. The difference between
     the $340 and the $380 is based on 5.26% as opposed to 5%. The $340 has
     already been repaid to the federal government. It is the Commission's position
     that an additional $40 is not due back.


                                Schedule C-2
             Award No. 01ASCNV029 - AmeriCorps Competitive:
                      U. S. Veteran's Initiative (USVI)


Nevada Commission for National and Community Service, Inc.
      a. Facility Rent and Related Party Transaction
      This is still an open issue with USVI's cognizant agency audit, the United
      States Veteran's Administration. The sub-grantee claims there is no
      relationship between the two entities based on federal regulation. As the
      audit points out, even if there were a related-party transaction, rental costs are
      still allowable but under a different computation. As of 04-22-05, the
      Commission was informed by the executive director for USVI that they've
      obtained the services of a consultant who has prepared the calculations by the
      two different methods for submission to the VA's general council.

      $379 for Hotel Costs: USVI has provided us a copy of the hotel receipt for
      this charge.

      $250 for Points of Light Event: documentation also included a copy of the
      registration form. The Commission may be able to provide a copy of the
      original receipt from its own records and can provide certification of
      attendance.

      $380 for telephone charge: USVI maintains the backup for this has been
      misplaced after having been pulled several times for several audits.

      b. Labor costs: USVI states that they did utilize supervision provided by its
         own employees as match contribution during a one-year time period.
         They state they did this based upon their interpretation of training
         received by Walker & Co. and word received from the Commission that
         in-kind could be matched with federal h d s . They ceased booking this
         type of in-kind after it was identified. However, we think the
         interpretation of 45 CFR as quoted is incorrect. Section 2521.30 (2) (ii)
         states that ". ..in providing for the remaining share of other AmeriCorps
         program costs, the program may provide for its share through State
         sources, local sources, or other Federal sources (other than funds made
         available by the Corporation)." Further, USVI may be able to offer a
         reasonable allocation for the supervision time in the form of timesheets,
         planners, minutes, etc.

      c. Un-allowed allocable costs: USVI has its accounting centrally located in
         Los Angeles. Sine they have sites across the country, they have the
         invoices coded in the field and then sent to Los Angeles for input. Often
         times it is determined by the approving individual in Los Angeles that a
         reclassification is necessary. Typically, the invoice would be sent back to
         the original approving individual to initial the change, but in this
         circumstance the change was not initialed. It was entered using just a
         verbal approval. USVI feels that the cots are allowable under the
         AmeriCorps grant even though the invoice notes that it should be charged
         to HUD.


Nevada Commission for National and Community Service, Inc.
         The $32 1 cost for a Houston site visit was a miscoding.

      d. USVI travel policy states that if circumstances force you to pay more
         than the maximum allowance for lodging it must be authorized by the
         Executive Director. Most of the travel related to this cost was done by
         either the Executive Director or Site Director, who would have her travel
         approved by the E.D. USVI requests fkther support of the $78 deemed
         unallowable to determine if the Executive Director did authorize the
         reimbursement of costs above per diem.

          USVI requires support for all travel related expenses. Travel dates are
          required on a request for reimbursement. In lieu of the travel dates, an
          alternative method would include examination of the proof of travel
          support. USVI requests fkrther support of the $132 deemed unallowable
          to determine if the travel dates can be verified.

      e. Adjustments were made at the end of USVI annual audit which has
         historically been the full 9 or more months after fiscal year end and more
         than once, the agency has applied for late filing of their audit. The time
         elapsed was often a year or more and related solely to the approved
         Indirect Cost Rate to reflect actual costs. Currently USVI is adjusting the
         IDCR pool on a monthly basis which eliminates this issue going forward.

2.    a. USVI maintains they can find the program director for that year and obtain
      an explanation for this discrepancy.

       b. A hallmark of the USVI program at it's beginning was the rehabilitation
          of homeless veterans who then could compete to be selected to serve
          through AmeriCorps after completing a spectrum of services.
          Documentation for the homeless is a complex and challenging issue.
          USVI reports that these members were formerly homeless veterans,
          individuals who served in the Armed Forces, which increases the
          likelihood that they are citizens or legal aliens.

       c. USVI states that this is either an error or that since the former member is
          now an employee, she is willing to serve the additional time. Also,
          they've implemented an additional system of checks and balances to
          ensure this does not occur. The system includes dividing the labor so
          the payroll department in Los Angeles enters time fiom site managers
          into WEIRS and the program directors verify WEIRS data against their
          copies of the tirnesheets.

                            Schedule D
Award No. 00ASFNV029, AmeriCorps - Formula: Family Resource Centers of
                  Northeastern Nevada (FRC-NEN)


Nevada Commission for National and Community Service, Inc.
As in the note under Schedule C- 1, the difference is the amount allowed by using
5.26 % as opposed to 5%. $645 has already been repaid to the federal government.

                               Schedule D-1
               Award No. 00ASFNV029, AmeriCorps - Formula:
                     Great Basin Primary Care (GBPC)

1. a. We have been informed that GBPC was asked by Cotton and Company in
    January of 2005 to provide signed affidavits regarding the distribution of time
    and attendance for the program director to address the question of her time being
    charged to both a VISTA and an AmeriCorps*State grant. The sub-grantee has
    not replied.

   The Corporation should be aware that GBPC declined to accept their
   AmeriCorps*State award for program year 2004-2005 and also did not respond to
   phone calls and e-mails from the Commission regarding the subsequent closing of
   that grant. The Commission will close this subgrantee in non-compliance. The
   Corporation was put on notice via a copy of the letter to GBPC that the
   subgrantee was being closed in non-compliance. The questioned costs concern
   the h d i n g under the federal VISTA*ArneriCorps Corporation grant and the
   Commission maintains the Corporation should look into this issue.

       The Commission thinks GBPC could come up with a reasonable allocation
       plan that would result in less questioned costs. However, the sub-grantee
       informed us via e-mail on Aug. 1,2004 that all inquiries from us regarding
       their I. G. audit should be addressed to their attorney. Representatives from
       Cotton and Co. verified for us that they had ongoing conversations as
       necessary with the GBPC staff in order to address audit summary findings and
       this item appears to still be at issue.

       See answer above. We have no further information to dispute this.

       Verbal conversations were recorded in our running records with the sub-
       grantee about this subject prior to grant award, although no formal request was
       made. It is felt these costs would have been allowable after-the-fact.

2. These h d s have been repaid. See Schedule C- 1, 1-a. $2,234 has already been
remitted back to the federal government.

3. We feel the reasonableness argument should apply here as well. A 5-hour
discrepancy between timesheets and WBRS is more than likely human error.

                             Schedule D-2
      Award No. 00ASFNV029: Parasol Community Foundation (Parasol)



Nevada Commission for National and Community Service, Inc.
1. a. No questioned costs.

  b. This was a mis-posting of allowable costs between Category A and Categories
     B-F. It is the net effect of moving $2,229 PY 01-02 allowable employee fkinge
     and $500 allowable member living allowance. All the costs were allowable
     but misplaced.

  c. Host sites were responsible for obtaining background check for members, per
     Parasol's site agreement. The members in question all served in the Washoe
     County School District (WCSD). It is the policy of the WCSD not to
     fingerprint volunteers serving in a classroom with a certified teacher. It is the
     Commission's interpretation that state law allows local school districts to make
     this determination. Actions taken thus far:

              The WCSD volunteer coordinator stated she would fax a copy of that
              policy on their letterhead to the sub-grantee.
              A copy ofthe school's "Volunteer Application" with an area to
              complete that shows whether or not fingerprinting is required has been
              provided to the commission.

     The Commission maintains that this is a compliance issue and that
     fingerprinting is not a fundamental support for eligibility in the same category as
     citizenship. However, the Commission has strengthened its own policy on the
     matter, and Parasol now routinely requires background checks for all
     ArneriCorps members. The members completed their service assignments, the
     school district did :not require them to be fingerprinted, there were no problems,
     and so we ask that their education awards and living allowances not be
     questioned.

      Parasol was made: aware of the fact that unemployment was unallowable and
      has not charged s:ince. It's possible this could be recouped from state funds.

      Parasol also under claimed member living allowance in 00-01 by $934.00 and
      in 02-03 by $2,350.37 and requests to pay the net of $2,308.63 as opposed to
      $5,593.00

      Parasol states this was caused by an internal misunderstanding where the
      Executive Director made a statement to a part-time member that they were
      eligible to receive health insurance. This was the first time in Parasol's 5
      year's of operation that they had part time members.

      The $124 in quesl.ionmay have been charged erroneously to the incorrect grant
      year. Payroll records indicate she was only paid $7,218.80. Further research is
      needed.




Nevada Commission for National and Community Service, Inc.
     This occurred during the first program year. "Catch-Up" payments were
     discontinued after this time period. Is it possible these members had the same
     amount of accumulated hours by the time of termination fiom the program.

     Parasol also incurred significantly more costs than claimed, which would offset
     any gain by exceeding Category B-F by $388. The overall grant amount was
     not exceeded.

     a. This was the first year of the program 00-01. The program director herself
     left before the end of the members' term and while being replaced, this record-
     keeping fell to the agency's Development Assistant. There is a comment in
     WBRS that states the members left for compelling personal circumstances that
     included personal1 problems and transportation challenges. Attempts to contact
     all parties involved to obtain more details have not been fiuithl. The
     member's phone number and the original program director's are not working.

    b. Same response as in 1. c above. It should be noted that the Commission
       thinks that the state of Nevada leaves the determination for requiring
       background checks for volunteers working in schools up to the local school
       district.

    c. The hours for the three ArneriCorps members in question have been
     recalculated by th.e program director and conflict with the results of the Cotton
     and Co. auditor. Also, we feel the reasonableness test applies here as well:

                    Rel~eccaJones: 17 10 WBRS; 1697 C&C; 1722.5 Program
                    Elena Dicus: 1702 WBRS; 1695.5C&C; 1716.5 Program
                    Adam Popkin: 1700 WBRS; 1671 C&C; 1695 Program

           RESPONSE TO INDEPENDENT AUDITOR'S REPORT ON
                COMPLIANCE AND INTERNAL CONTROL

    The Nevada Cormrussion for National and Community Service, Inc. approaches
    its responsibility folr monitoring sub-grantees as a process of continuous
    improvement. While we agree that there were areas of weaknesses that we have
    addressed since the:y came to light during the audit in the summer of 2004, we
    disagree that Findings Nos. 1 and 2 constitute material weakness. In particular,
    we point out that questioned costs amounted to only 2.4% of total costs in the
    three year period that was audited and that there were no questioned costs at the
    Grantee level.

    Finding No. 1

    Bullet Point 1: The Commission found this discrepancy on it's own during their
    annual internal audit proving that we have the internal control systems in place
    to reduce to a relatively low level, any risk that misstatements in amounts that


Nevada Commission for National and Community Service, Inc.                            7
    would be material would occur without detection within a timely period and in
    the normal course of performing assigned fimctions.

    Bullet Point 2: Parasol staff attended training by Walker and Co. in which they
    were exposed to fc:deral cost principles so the claim of not being familiar with
    federal cost principles is incorrect.

    Bullet Point 3: These two formula programs experienced more challenges than
    others due to their size. As small community-based organizations, they did not
    have the financial sophistication necessary to consistently allocate and
    segregate. However, they were both provided financial training opportunities,
    both had independent audits and one had an A- 133 audit. The Commission will
    no longer provide financial training as an option but rather as a requirement.

    Bullet Point 4: Again, this is a case of a small non-profit lacking capacity.
    While we are addrlessing this for the future, we also wish to point out that it is a
    priority of this administration to emphasize grants to small community and faith
    based organizations, who are the very ones where the capacity to manage federal
    grants is usually less developed. We encourage government to allocate training
    funds that will systematize federal grants management capacity for small
    community based imd faith based organizations.

    Bullet Point 5: Alli Commission AmeriCorps programs have been instmcted to
    place more emphasis on correctly maintaining time sheets and our program
    monitoring instrument has been changed to reflect tighter monitoring of this
    issue. The Comission is also in the process of developing an AmeriCorps
    Program training manual for both programmatic and financial staff of
    subgrantees that will include topics to address all the findings in this audit.

    Bullet Point 6: The Commission regularly reviews sub-grantee audit reports.
    There was only one instance when this issue was overlooked and that is because
    it came to light at such a late point in time due to the discrepancy in program
    year and audit due dates. The Commission uses A- 133 as a tool required by the
    CFR. The ArneriC'orpsgrant is not always audited in the A- 133's of our
    subgrantees. We fbllow up on findings that apply to us. We also reconcile the
    subgrantee Schedule of Award to their Financial Status Reports, both on a
    quarterly and year-end basis. We do not think we're required to re-audit
    subgrantees.

    Bullet Point 7: There is a note in the GBPC files that the Program Officer
    observed that the first report mentioned was late. She also noted the second
    report was late and made a note to the file that she issued a verbal warning and
    that M e r late reports would result in a fine. There were no M e r late reports
    fiom GBPC. In the case of the Parasol Foundation, although there are no notes
    in the files for 00-0 1 and 01-02, we note they have not been late thereafter.
    None of the reports were late to the Corporation. These subgrantees failed to


Nevada Commission folr National and Community Service, Inc.
    meet the Commission's deadline but the Commission did not fail to meet the
    Corporation's deadline as a result.

    Recommendation:
    The Commission agrees that its program monitoring procedures needed to be
    improved. Our program review instrument was already changed to allow space
    to reflect the reconciliation of claimed costs to accounting records. We have
    already strengthenled our financial monitoring by making changes to our
    program review instrument, requiring regular financial statements fiom
    subgrantees upon submission of invoices between financial site visits, verifying
    match more often, training on match and timesheet allocation, and strengthening
    our written policies and procedures. Furthermore, the Assistant Director is now
    in the process of devising the training plan mentioned in Bullet Point No. 5
    above. Subgrantees are under strict instruction not to miss reporting deadlines
    and must have our written approval for any extenuating circumstances.

    Finding No. 2

    Bullet Point 1: Sta~ffLabor costs and the proper recording thereof, including
    allocation between programs and certification of effort, are receiving greater
    attention in our program review instrument. This topic has also received
    emphasis in ongoing contact with the subgrantees and will become an important
    part of our pre-service training manual. The importance of the application of the
    OMB Circular principles, and training in these principles for our subgrantees, is
    being devised in consultation with Walker & Co.

    Bullet Point 2: The Commission has implemented a quarterly, after-the-fact
    reconciliation that compares actual effort to allocations to grant draws. This
    situation at the Cornmission level did not result in questioned costs because all
    labor costs incurred were allocable.

    Bullet Point 3: The Commission does not review 100% of invoices at most of
    its subgrantees as part of the normal financial monitoring process. If it did there
    would have to be more staff and we don't think that monitoring is the same
    thing as auditing. 'We do however, rely on sample testing and in so doing, did
    not catch the number of unsupported documentation incidents that Cotton and
    Co. did. However, we have emphasized to subgrantees the necessity of abiding
    by federal cost principles and as a result of this audit we are certain that message
    has taken root. This will be an ongoing topic in the OMB training that the
    Commission is sponsoring and requiring all subgrantee financial personnel to
    attend. The Commission itself had no unsupported claimed costs. Regarding
    the costs at USVI tlhat were later credited fiom the program, please refer to our
    response under 1 .e, Schedule C-2 above.




Nevada Commission fo'rNational and Community Service, Inc.
    Bullet Point 4: These fimds were ultimately not paid by the Commission to
    GBPC. Final payment to the subgrantee was adjusted to account for this in
    November of 2004..

    Bullet Point 5: Adldressed in Item 1-d of Schedule D-2 above.

    Bullet Points 6, 7, 8 and 9 all refer to the same subgrantee, a small community-
    based organization,that did not have the systems necessary to avoid these
    allowability mistakes despite training by Walker & Co.

    Recommendation: Because all of our subgrantees have provided such a
    substantial amount of incurred-cost match, we request these costs not be
    reimbursed. The Commission is committed to better training our sub-recipients
    on federal cost principles as detailed under the recommendation in the first
    finding. Testing the allowability of costs was an informal determination made
    by interviewing staff during site visits on costs and invoices reviewed. It has
    now become a documented part of the program review instrument and will also
    be covered as a primary training piece when we study the OMB Circulars. The
    Commission itself had no costs questioned for allowability.

    Finding No. 3

    Bullet Point 1: Addressed as the questioned costs under the corresponding
    Schedules above. 'The Commission has always maintained a strict policy as far
    as documentation of citizenship is concerned and emphasized both this and
    proof of high school diplomas and GEDs as part of Program Director training.
    These missing documents are a result of sampling, as opposed to testing 100%
    of member files for this information. 100% of files are now being tested in site
    visits by Commission program staff.

    Bullet Point 2: We are pleased that high school diplomas are no longer a
    requirement and think that indicates that the issue was dealt with as best as
    possible. Also, during the time period in question, programs were following the
    ArneriCorps Director Handbook issued by the Corporation which did allow this
    method as an alternative to a high school diploma for awhile. Some member
    files contain officid college transcripts as proof of high school diploma1GED
    and we have routinely accepted that in the past. We ask that the Corporation
    rely on the institution of higher learning to verifl that members have graduated
    with a high schooYGED diploma in order to use their education awards.

    Bullet Point 3: Comnission staff are in the process of reviewing all available
    information regarding fingerprinting for required populations on the state and
    local levels. Additionally, we have required all programs to review and report
    their procedures to us and will provide ongoing training to subgrantees
    regarding this requirement.



Nevada Commission for National and Community Service, Inc.
    Bullet Point 4: This item is addressed under Schedule A, 3-a above.

    Bullet Point 5: Addressed in Items 2. a, b and c of Schedule C-2 above.

    Recommendation: The Commission began implementing 100% review of
    program files in its on-site reviews conducted in 2004. The reviews take into
    account citizenship, high school diploma1GED verification, reconciling
    timesheets to WBRS, background checks, service hour descriptions and
    documentation of compelling personal circumstances. No programs may exit a
    member early without prior consultation with Commission staff.

    Finding No. 4

    Bullet Point 1: Please see the expanded discussion of this under Bullet Points 4
    and 5 below.

    Bullet Point 2: This procedure was eliminated after their first year as a program.

    Bullet Point 3: This item was discovered and reconciled by the Commission
    and GBPC was ultimately not reimbursed for any costs associated with
    overpayment of members.

    Bullet Points 4 and 5: Lump sum payments and payment for periods outside of
    the service term: the Commission disagrees with the interpretation of the
    Provision quoted. Programs contract to pay a certain amount of living
    allowance for a certain number of hours. In the cases where a member
    completes hours early, if they stop receiving the stipend and a lump sum is not
    paid to them, then they would be penalized for completing their hours early by
    not receiving the full amount of their contract. Additionally, it would benefit a
    member who was slow to reach their hours because they would receive their
    entire living allowance, thus reinforcing the wrong message.

    Recommendation: The Commission requires copies of payroll schedules/
    general ledger detail fiom the subgrantee books of origin during site visits to
    authenticate an even distribution of living allowance.

    Finding No. 5

    Bullet Point 1: The Commission has been emphasizing and providing guidance
    on the importance of member evaluations via conversations, e-mails reminders
    and during the site review. The program review monitoring instrument reflects
    this.

    Bullet Point 2: All member forms are monitored at site visits and the Assistant
    Director also monitors compliance with the 30 day timefiarne between member



Nevada Commission for National and Community Service, Inc.
    commitments and member enrollments on M R S . This issue is also covered in
    great detail in our program director training.

    Bullet Point 3: The Commission has instructed all programs in the proper
    documentation of training events and accompanying member sign-in sheets.
    We require agendas and sign in sheets as documentation for all training
    meetings.

    Bullet Point 4: The Commission has instructed all programs directors to
    conduct their own random desk audits comparing time sheets to W R S . The
    Commission will also be conducting quarterly desk audits for all programs to
    randomly sample proof of eligibility, timesheets, performance measurements
    data and a variety of other items.

    Recommendation: The Commission agrees with the recommendation and has
    already implemented it.

    Finding No. 6

    Bullet Point 1: The Commission has notified programs to maintain this data.
    Programs have historically relied on census data for this information, as the
    Provisions simply state that it must be available, as opposed to documented. All
    programs were advised to use the member application form provided from the
    Corporation, as that form has a mechanism to gather this data for members.
    This same mechanism is recommended for use on application information for
    program staff.

    Bullet Point 2: All programs are aware that the Commission requires strict
    adherence to progress report due dates and that they must request and receive
    permission in order to submit a report late.

    Bullet Point 3: All programs were instructed to use one standard grievance
    policy and procedure created by the Commission starting in early 2004. This
    was in order to insure that all applicable requirements were included in the form
    and that there was uniformity on the issue.

    Bullet Point 4: Member contracts have likewise received a revamping from the
    Commission's Assistant Director. All are reviewed for these compliance issues.

    Bullet Point 5: Although they did not have this policy, their stated requirement
    exceeded the required minimum.

    Recommendation
    The Commission agrees with these recommendations and has already
    implemented them.



Nevada Commission for National and Community Service, Inc.
    Finding No. 7

    The Peer Review forms have been revised so that the discussions that took place
    regarding financial reviews including audit reviews, as well as progress reports,
    are now documented. The Commission conducted these reviews and discussed
    past performance, but did not adequately document that process. The
    Commission agrees with this recommendation and began implementing it
    during peer review in 2005.




Nevada Commission for National and Community Service, Inc.
                         Appendix B


Response of the Corporation for National and Community Service
                                   Corporation for          ,-




To:

From:

CC:           A n d r e d i d n e , Acting chief ~ i n & dOfficer
              Rosie Mauk, Director of ArneriCorps Staternational

Date:         April 27,2005

Subject:      Response to OIG Draft Audit Report 05-10: Audit of Corporation for National
              and Community Service Grants Awarded to the Nevada Commission for National
              and Community Service


We have reviewed the draft audit report of the grants awarded to the Nevada Commission for
National and Community Service. Due to the limited timeframe for response, we have not
analyzed documentation provided by the Nevada Commission supporting the questioned costs
nor reviewed the audit work papers. We will respond to all findings and recommendations when
the audit is issued and we have reviewed the findings in detail.




                          1201 New York Avenue, NW      *
                                                   Washington, DC 20525
                                                *
                                202-606-5000 www.national~ervice.org
                                                                                      Freedom Corps
                          Senior Corps   * ArneriCorps * Learn and Serve America      The President's Call to Service
